<html>
<title> - H.R. 36, H.R. 3858, and H.R. 4103</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                   H.R. 36, H.R. 3858, and H.R. 4103

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 16, 2002

                               __________

                           Serial No. 107-116

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 -------

79-657              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                Anibal Acevedo-Vila, Puerto Rico
Chris Cannon, Utah                   Hilda L. Solis, California
Bob Schaffer, Colorado               Betty McCollum, Minnesota
Jim Gibbons, Nevada
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 16, 2002.....................................     1

Statement of Members:
    Bereuter, Hon. Doug, a Representative in Congress from the 
      State of Nebraska..........................................     4
        Prepared statement on H.R. 36............................     5
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, Prepared statement on H.R. 4103.............    61
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming...........................................     9
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................    11
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     7
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 36, H.R. 3858, and H.R. 4103..     3
    Rahall, Hon. Nick J. II, a Representative in Congress from 
      the State of West Virginia, Prepared statement on H.R. 3858    14

Statement of Witnesses:
    Burton, Bishop H. David, Presiding Bishop of the Church of 
      Jesus Christ of Latter-day Saints, Salt Lake City, Utah....    28
        Prepared statement on H.R. 4103..........................    30
    Fulton, Hon. Tom, Deputy Assistant Secretary, Land and 
      Minerals Management, U.S. Department of the Interior, 
      Washington, D.C............................................    15
        Prepared statement on H.R. 4103..........................    17
    Higgins, Kathryn O'Leary, Vice President of Public Policy, 
      National Trust for Historic Preservation, Washington, D.C..    40
        Prepared statement on H.R. 4103..........................    41
    Koepsel, Kirk, Northern Plains Regional Representative, 
      Sierra Club, Wyoming Chapter, Sheridan, Wyoming............    44
        Prepared statement on H.R. 4103..........................    45
    Larsen, Lloyd Charles, President, Riverton Wyoming Stake, 
      Lander, Wyoming............................................    35
        Prepared statement on H.R. 4103..........................    36
    Lukei, Reese F. Jr., National Coordinator, American Discovery 
      Trails Society, Virginia Beach, Virginia...................    47
        Prepared statement on H.R. 36............................    49
    Stevenson, Katherine, Associate Director, Cultural Resources 
      Stewardship and Partnerships, National Park Service, U.S. 
      Department of the Interior, Washington, D.C................    18
        Prepared statement on H.R. 36............................    19
        Prepared statement on H.R. 3858..........................    21


LEGISLATIVE HEARING ON H.R. 36, TO AMEND THE NATIONAL TRAILS SYSTEM ACT 
   TO AUTHORIZE AN ADDITIONAL CATEGORY OF NATIONAL TRAIL KNOWN AS A 
   NATIONAL DISCOVERY TRAIL, TO PROVIDE SPECIAL REQUIREMENTS FOR THE 
 ESTABLISHMENT AND ADMINISTRATION OF NATIONAL DISCOVERY TRAILS, AND TO 
   DESIGNATE THE CROSS COUNTRY AMERICAN DISCOVERY TRAIL AS THE FIRST 
 NATIONAL DISCOVERY TRAIL; H.R. 3858, TO MODIFY THE BOUNDARIES OF THE 
NEW RIVER GORGE NATIONAL RIVER, WEST VIRGINIA; AND H.R. 4103, TO DIRECT 
   THE SECRETARY OF THE INTERIOR TO TRANSFER CERTAIN PUBLIC LANDS IN 
 NATRONA COUNTY, WYOMING, TO THE CORPORATION OF THE PRESIDING BISHOP, 
                        AND FOR OTHER PURPOSES.

                              ----------                              


                         Thursday, May 16, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 1324, Longworth House Office Building, Hon. George P. 
Radanovich [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning. This hearing will come to 
order. This morning, the Subcommittee on National Parks, 
Recreation, and Public Lands will hear testimony on three 
bills, H.R. 36, H.R. 3858, and H.R. 4103.
    The first bill, H.R. 36, introduced by Representative Doug 
Bereuter, would amend the National Trail System Act to create 
an additional category of national trail known as the national 
discovery trail, to provide special requirements for the 
establishment and the administration of national discovery 
trails, and to designate the cross-country American Discovery 
Trail as the first national discovery trail.
    Mr. Radanovich. The second bill, H.R. 3858, would modify 
the boundaries of the New River Gorge National River of West 
Virginia by adding six tracts of land, all from willing 
sellers. The bill would also enact a fee simple land exchange 
of less than one-third of an acre between an adjacent private 
land owner and the park.
    Mr. Radanovich. Finally, the last bill, H.R. 4103, which 
would direct the Secretary of the Interior to offer to sell 
certain public land in Natrona County, Wyoming, to the 
Corporation of the Presiding Bishop of The Church of Jesus 
Christ of Latter-day Saints.
    This is the second Subcommittee hearing that will have been 
held regarding this bill, the first of which was held in 
Casper, Wyoming, on May 4. Having chaired the hearing out in 
Casper, I have heard a bit about this bill prior to the hearing 
and would like to correct for the record a number of 
misconceptions that are out in the public domain.
    During my opening statement in Casper, I noted that some 
groups have asserted that the bill would sell a national 
historic site. I corrected this misconception by explaining 
that the national historic sites are few in number and are of 
broad national significance. These are sites such as the Ronald 
Reagan boyhood home, the Harry Truman home, and the John Muir 
home. National Register sites number of 75,000 and there is a 
major difference in the level of significance that they have 
been given in comparison to the national historic sites.
    I am disappointed that despite the attendance of the 
Wyoming Chapter of the Sierra Club at the hearing, they have 
referred to Martin's Cove as a national historic site in their 
written testimony. Again, Martin's Cove is listed on the 
National Register only. It is not a national historic site and 
the bill does not sell a national historic site.
    Let me further put this in perspective by saying that there 
are over 75,000 sites listed on the National Register, 
including 31 sites in Natrona County, Wyoming, alone. This 
means that Martin's Cove enjoys the same status on the National 
Register as the Natrona County High School, the Casper Fire 
Department station, the Elk's Lodge, the local railroad depot, 
the former home of the Casper Star Tribune, and many other 
local properties.
    Sites on the National Register change ownership all the 
time. For example, my staff requested a list from the Advisory 
Council on Historic Preservation of all the sites listed on the 
National Register which have been transformed out of Federal 
land ownership. We were told that the search would consume a 
staff person for a week and that they would appreciate it if we 
would narrow down the search because there were so many 
properties that fit this description.
    While it may not take place every day, we also know that 
this occurs often enough that there is programmatic agreement 
in place between the BLM and the Advisory Council on Historic 
Preservation on how to address transfers of historic properties 
without requiring a more formal process from the Advisory 
Council. Many of these are dealt with under the Recreation and 
Public Purposes Act. We were also provided with a list of 
several properties which have been transferred.
    In addition, other Federal agencies transfer sites on the 
National Register all the time, as well. When military bases 
are closed, historic properties must be transferred out of 
Federal ownership to ensure that they are cared for. In fact, 
in 1998, a national historic landmark, a site with greater 
recognition than Martin's Cove, was transferred out of Federal 
ownership to the Aleut Corporation, a private for-profit 
corporation, as part of the closure of the Naval complex in 
Adak, Alaska.
    Once again, it is my hope that this hearing will help iron 
out the facts on this bill and to take suggestions on what 
might improve this bill.
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George P. Radanovich, Chairman, Subcommittee 
            on National Parks, Recreation, and Public Lands

    Good morning. The hearing will come to order.
    This morning the Subcommittee will hear testimony on three bills, 
H.R. 36, H.R. 3858, and H.R. 4103.
    The first bill, H.R. 36, introduced by Representative Doug 
Bereuter, would amend the National Trails System Act to create an 
additional category of national trail known as a National Discovery 
Trail, to provide special requirements for the establishment and 
administration of National Discovery Trails, and to designate the cross 
country American Discovery Trail as the first National Discovery Trail.
    The second bill, H.R. 3858, would modify the boundaries of the New 
River Gorge National River in West Virginia by adding six tracts of 
land, all from willing sellers. The bill would also enact a fee simple 
land exchange of less than one-third of an acre between an adjacent 
private landowner and the park.
    And finally, the last bill, H.R. 4103, which would direct the 
Secretary of the Interior to offer to sell certain public land in 
Natrona County, Wyoming to the Corporation of the Presiding Bishop of 
The Church of Jesus Christ of Latter-day Saints. This is the second 
subcommittee hearing that we have held regarding this bill. The first 
of which was held in Casper, Wyoming on May 4th.
    Having chaired the hearing out in Casper, and having heard a bit 
about this bill prior to this hearing, I would like to correct for the 
record a number of misconceptions that are out in the public domain. 
During my opening statement in Casper I noted that some groups have 
asserted that this bill would sell a National Historic Site. I 
corrected this misconception by explaining that National Historic Sites 
are few in number and are of broad national significance. These are 
sites such as the Ronald Reagan Boyhood Home, the Harry Truman Home and 
the John Muir Home. National Register sites number over 75,000 and 
there is a major difference in the level of significance they have been 
given, in comparison to National Historic Sites. I am disappointed that 
despite the attendance of the Wyoming Chapter of the Sierra Club at 
that hearing, they have referred to Martin's Cove again as a National 
Historic Site in their written testimony. Again, Martin's Cove is 
listed on the National Register only. This bill does not sell a 
National Historic Site.
    Allow me to put this in perspective. There are over 75,000 sites 
listed on the National Register, including 31 sites in Natrona County, 
Wyoming alone. This means that Martin's Cove enjoys the same status on 
the National Register as Natrona County High School, the Casper Fire 
Department Station, the Elks Lodge, the local railroad depot, the 
former home building of the Casper-Star Tribune, and many other local 
properties.
    Sites on the National Register change ownership all the time. For 
example, my staff requested a list from the Advisory Council on 
Historic Preservation of all the sites listed on the National Register 
which have been transferred out of Federal ownership. We were told that 
the search would consume a staff person for a week and that they would 
appreciate it if we could narrow the search because there were so many 
properties that fit this description. While it may not take place 
everyday, we also know that this occurs often enough that there is a 
programmatic agreement in place between the BLM and the Advisory 
Council on Historic Preservation on how to address transfers of 
historic properties, without requiring a more formal process from the 
Advisory Council. Many of these are dealt with under the Recreation and 
Public Purposes Act. We were also provided with a list of several 
properties which had been transferred. In addition, other Federal 
agencies transfer sites on the National Register all the time as well. 
When military bases are closed, historic properties must be transferred 
out of Federal ownership to ensure they are cared for. In fact, in 
1998, a National Historic Landmark, a site with greater recognition 
than Martin's Cove, was transferred out of Federal ownership to the 
Aleut Corporation, a private, for-profit corporation, as part of the 
closure of the Naval Complex in Adak, Alaska.
    Once again, it is my hope that this hearing will help to iron out 
the facts on this bill and to take suggestions on what might improve 
the bill.
                                 ______
                                 
    Mr. Radanovich. Before turning time over to Mr. Hansen, I 
would ask unanimous consent that Mrs. Cubin and Mr. Bereuter be 
allowed to sit on the dais after their testimony. Without 
objection, so ordered.
    I now turn to the Chairman of the Full Committee, Mr. 
Hansen.
    The Chairman. Mr. Chairman, thank you for those opening 
remarks. I note that we have a vote on right now and possibly, 
if I could make a suggestion, I would think it would probably 
be wise--I know Doug Bereuter probably does not want to sit 
here through the whole thing. May I ask, Doug, how long is your 
statement?
    Mr. Bereuter. About 6 minutes, Mr. Chairman.
    Mr. Radanovich. We have about 6 minutes left, so--
    The Chairman. Do you think it would be wise if we let Doug 
get this out and then go over and vote and then come back so we 
do not hold all these folks? What I was really concerned about 
is I know Mrs. Cubin wants to be here for the comments that we 
are going to make on the opening part and she is not here yet, 
so it is kind of living up to an agreement I think we have all 
agreed upon that she could be here.
    Mr. Radanovich. Is there any objection, any kind of problem 
with--
    Mr. Bereuter. No objection, Mr. Chairman.
    Mr. Radanovich. Why do we not move to the Honorable Doug 
Bereuter to make his opening statement, and then after that, we 
will recess for, I think it is just one vote, and then come 
back and resume the hearing. Doug, welcome.H.R. 36

 STATEMENT OF HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEBRASKA

    Mr. Bereuter. Chairman Radanovich, Chairman Hansen, members 
of the Subcommittee, thank you very much. Actually, I will not 
take you up on your offer to sit on the dais because we have a 
markup in Transportation going on at this moment.
    I first introduced this bill in the 104th Congress, and 
each succeeding Congress, it has attracted a bipartisan mix of 
cosponsors which represent both rural and urban districts and 
cover very diverse geographic areas. Similar legislation has 
been approved by unanimous consent in the full Senate during 
the 107th Congress, as well as the two previous Congresses.
    I am going to shorten this substantially so there might be 
time for a question or two, if you would like.
    The ADT is truly unique. It is the first trail to extend 
from coast to coast, also the first national trail designed to 
connect urban areas to wilderness areas. This multi-use trail 
itself creates a national system of connected trails and links 
large cities with majestic forests and remote desert 
landscapes.
    I introduced this legislation because I believe that the 
ADT will provide outstanding family oriented recreational 
opportunities for all Americans, will serve as the 
transcontinental backbone of a growing national trail system by 
linking together a variety of local, regional, and national 
trails and making them more accessible.
    I want to stress that the ADT very carefully takes into 
account private property concerns by routing almost all of the 
trails on public land. In fact, one of the basic principles on 
which the ADT has been developed, it has been to avoid routing 
it on private property and there is a prohibition against 
acquisition of land for purposes of the trail in the 
legislation.
    There are only 88 miles of the entire route that is on 
private property, and that is just on a few areas. Only five 
States have a portion of ADT on private land. In two of those 
States, the figure is less than a mile, so mostly we are 
talking about utilities and other kinds of quasi-public lands. 
I go into some detail to explain the prohibition against the 
acquisition by eminent domain for purposes of this trail.
    It has a wide degree of supporters. In fact, it is in place 
in many parts of the country, but not officially as a trail. We 
have had a huge volunteer effort, and I would like to recognize 
that one of the two Members of Congress, and I would say the 
member most responsible for the study of this trail years ago 
is sitting in the audience here, and that is our former 
colleague, Beverly Byron from Maryland, as she is responsible 
for the initial study which led to the feasibility and 
desirability of actually naming this as a new variety of trail.
    Also, Mr. Reese Lukei is here. He is the ADT's national 
coordinator and he epitomizes the kind of volunteers that have 
pushed very hard for this important legislation. He will be 
testifying before you. From the beginning, he has been a 
tireless and energetic advocate for ADT and his impressive 
efforts certainly are reflective of many people who similarly 
supported the legislation.
    Mr. Chairman and members of the Subcommittee and Mr. 
Chairman Hansen, I will just leave it at that, assuming that my 
full statement might be made a part of the record.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. Bereuter. I would be happy to answer any questions that 
there might be. Many of you have been exposed to this several 
times.
    Mr. Radanovich. Thank you, Mr. Bereuter.
    [The prepared statement of Mr. Bereuter follows:]

Statement of The Honorable Doug Bereuter, a Representative in Congress 
                 from the State of Nebraska, on H.R. 36

    Chairman Radanovich, Delegate Christensen and members of the 
Subcommittee: I would like to begin by thanking you for giving me this 
opportunity to express my strong support for H.R. 36, the National 
Discovery Trails Act, which I introduced on January 3, 2001.
    During the 104th Congress I introduced the first such bill and I 
have offered similar bills in each succeeding congress. The legislation 
has attracted a bi-partisan mix of cosponsors which represented both 
rural and urban districts and covered very diverse geographic areas. 
Similar legislation has been approved by unanimous consent in the full 
Senate during the 107th Congress as well as the previous two 
congresses.
    It's easy to see why this legislation has attracted such widespread 
support. It represents the product of a true grassroots effort, and it 
is designed to provide a unique trail experience for millions of 
Americans. I believe that this legislation is a tremendously positive 
and exciting step forward in both the development and in the connection 
of trails in America.
    The bill contains two important components: First, it creates a new 
category of trails, National Discovery Trails. This new category will 
complete a missing gap in the current National Trails System by 
establishing a link between urban and rural trails. Second, the 
legislation would designate the American Discovery Trail as the first 
trail in the new category.
    The ADT is truly unique. It is the first trail to extend from 
coast-to-coast. It's also the first national trail designed to connect 
urban areas to wilderness areas. This multi-use trail itself creates a 
national system of connected trails and links large cities with 
majestic forests and remote desert landscapes. The ADT also links 
trails such as the Appalachian and the Pacific Crest with numerous 
local trails across the U.S. Along the way, it provides access to 
countless historic, cultural and scenic landmarks.
    I introduced this legislation because I believe that the ADT will 
provide outstanding, family-oriented recreational opportunities for all 
Americans. It will serve as the transcontinental backbone of a growing 
national trails system by linking together a variety of local, regional 
and national trails and making them more accessible.
    In addition, the ADT will offer important economic development 
benefits to the communities along its route. States and communities are 
also justifiably excited about the increased tourism opportunities 
which the ADT will present.
    I also want to stress that the ADT very carefully takes into 
account private property concerns by routing almost all of the trail on 
public lands. In fact, one of the basic principles on which the ADT has 
been developed has been to avoid routing it on private property. The 
ADT is more than 6,000 miles long and almost entirely on public lands.
    As it is proposed, only approximately 88 miles of the route is 
located on private property and then only in locations where there are 
existing rights-of-way or agreements with existing trails or by 
invitation. For example, the Iowa portion of the trail located on 
private property consists of a non-profit owned trail, the Hoover 
Valley Nature Trail. Only five states have a portion of the ADT on 
private land and in two of those states the figure is less than a mile.
    Private property rights would be fully protected through language 
in the bill which mandates that ``no lands or interests outside the 
exterior boundaries of Federally administered areas may be acquired by 
the United States solely for the American Discovery Trail.''
    I would also like to take a moment to mention the importance of the 
ADT in my home state. In Nebraska, the trail passes through Omaha, 
Lincoln, Grand Island, Kearney, North Platte, Ogallala and numerous 
small communities. Trails groups throughout the state have been 
energized by the ADT since they realize the important role they play in 
this unique national trail initiative.
    Nebraska has a rich trails history and I am pleased that the ADT 
gives trails enthusiasts the opportunity to explore the most popular 
and significant of the pioneer trails to the West Coast---- the Mormon 
Trail, the Oregon Trail and the California Trail--as well as the Pony 
Express Trail and the route of the first transcontinental railroad.
    Additionally, I would highlight the City of Lincoln's trails 
efforts and how they relate to the ADT. Lincoln has shown a high level 
of enthusiasm for the ADT, which has become a focal point for the 
city's trails program. Lincoln's example demonstrates the kind of 
positive impact the ADT can have on communities throughout the nation. 
Lincoln's strong commitment to the development of trails will continue 
to pay dividends in the form of increased tourism, economic development 
and recreational opportunities for its citizens.
    This testimony is an appropriate opportunity to acknowledge and 
commend Reese Lukei, Jr., the ADT's national coordinator. I understand 
that he will also testify before the Subcommittee in support of the 
legislation. From the beginning, Reese has been an energetic and 
tireless advocate for the ADT. His impressive efforts have certainly 
helped raise awareness about the trail and support for it.
    Finally, I would conclude by mentioning that although the ADT is 
national in scope, this important trails project is made possible by 
the grassroots efforts on the state and local level. Enactment of this 
legislation is critically needed in order for the ADT to achieve its 
outstanding potential. With passage of this bill, we will help ensure 
that the ADT will offer benefits for generations to come.
    Thank you for allowing me the opportunity to testify in support of 
H.R. 36.
                                 ______
                                 
    Mr. Radanovich. I think what we will do is recess for a 
short time so that you and I and Jim can go vote and we will be 
right back. Thank you very much.
    [Recess.]
    Mr. Radanovich. We are back from our recess and we will 
begin the hearing. We will begin with the Honorable Jim Hansen 
from Utah, Chairman of the Full Committee. Jim, would you like 
to proceed?
    The Chairman. I thank you, Mr. Chairman, and appreciate the 
opportunity to be with you. The gentlelady from Wyoming was 
right behind me and she said she wanted to hear my statement so 
she could hack it up, but I do not know where she is right now 
but I am sure she will be here and can read it. But if it is OK 
with you, Mr. Chairman, I will proceed.
    Mr. Radanovich. Please do.

  STATEMENT OF THE HON. JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    The Chairman. I really want to welcome our witnesses who 
have traveled to be here today to give testimony on the 
Martin's Cove Land Transfer Act. I appreciate the efforts of 
Chairman Radanovich and the other members of the Committee who 
traveled to Casper, Wyoming, to hold a legislative field 
hearing on this bill. I am pleased that the process on this 
bill has been thorough. In fact, I understand, and you correct 
me if I am wrong here, that we have probably had more testimony 
and more witnesses on this particular piece of legislation than 
you have had since you have been Chairman, is that correct?
    Mr. Radanovich. Yes, sir.
    The Chairman. We will hear today about what took place at 
Martin's Cove. Since others will touch on the significance of 
what took place there, I will not spend time on the point here 
other than to say that what took place there is a truly 
remarkable and inspiring story of the LDS faith. Given its 
uniquely religious significance, it is difficult to conceive 
how the Federal Government could ever care for and interpret 
the land in a better manner than the Church and to give it the 
exemplary stewardship it deserves.
    Every year, Congress struggles to appropriate adequate 
funds to underfund parks and public lands. I have been on this 
Committee for 22 years. I have chaired this Committee and I 
have chaired some of the Subcommittees and we have a huge 
backlog on our public lands of money. In fact, we are $15 
billion just in parks.
    I do not know why it would be in the Federal Government's 
best interest to retain the financial stewardship 
responsibility for Martin's Cove when the Church is not only 
willing to tell the story on their own dime, but to allow all 
of the public to enjoy it and have access. We should be 
devoting the limited financial resources of the Federal 
Government to priorities that are very broad, of national 
significance, such as our National Park System.
    Those that are trying to make a fourth quarter attempt, 
such as the Sierra Club and other environmental advocacy 
groups, to portray Martin's Cove as broadly significant to 
anyone they can think of, and beyond that of what took place 
there to Mormon pioneers, need to explain where they have been. 
Where were they when Mormon volunteers spent literally tens of 
thousands of man hours making the site accessible, building 
trails, building footpaths and bridges across the river to the 
site? Where were they when the Church was spending its time and 
money to acquire the Sun Ranch in an effort to open up public 
access for everyone? Why did we not hear from them about how 
they would like to help with their time and their money because 
the site was of such broad significance to them as Americans?
    The fact is that they were nowhere to be found because this 
site is not very significant to any group except the LDS 
Church.
    It is certainly true that on the other side of the 
Sweetwater River, the historical trails that run through that 
area have broad national significance. No one would argue that. 
I have probably put more areas in trails than any other Member 
of Congress and they are very important to America. These 
trails, however, are already fully interpreted and deserve to 
have the significant Federal resources that are devoted to 
them.
    No one should feel that if the Martin's Cove site is 
devoted to the interpretation of a single event, that this 
somehow undermines what took place by other great American 
pioneers along historical trails located really not too far 
from this site. In fact, a few years ago when serving as 
Subcommittee Chairman, I strongly supported a bill to provide 
Federal assistance to the National Historic Trails 
Interpretative Center in Casper, as you may recall, so that the 
other significant stories that took place in this area of our 
country would not go untold.
    The point should be made, however, that prior to the 
Church's involvement in Martin's Cove, the BLM did not put up 
signs, it did not request funds, nor did it make any attempt to 
facilitate access across the privately owned Sun Ranch. I 
hasten to say, this is not the fault of the agency. Rather, it 
is a reflection of the fact that with over 75,000 sites on the 
National Register, it is simply impossible for the Federal 
Government to devote the resources necessary to care for and 
interpret each one. We just do not have the money, is what it 
amounts to.
    This has been recognized by Congress. When I served as 
Chairman of this Subcommittee, we passed the National Historic 
Lighthouse Preservation Act, recognizing there are no 
nonprofits and community development organizations that could 
take title to National Registered lighthouses and care for them 
in the interest of the public without the Constitution of the 
United States collapsing around us.
    Before I close, however, I would like to read a statement 
from the Ranking Member of the Full Committee, Mr. Nick Rahall, 
who cannot be here today and lends his support to this bill. He 
has asked me to read this for the record. ``When all is said 
and done, I have become convinced that Martin's Cove will be 
better managed, more accessible to the public, and its heritage 
and historical significance made more secure under the 
legislation sponsored by the gentleman from Utah, Mr. Hansen.''
    I hope that we can have a thoughtful dialog here today and 
that we can separate the fact from the fiction for the benefit 
of the record. This is a good bill and I am convinced that when 
it is all said and done, people will understand the excellent 
stewardship that the LDS and will be pleased in the manner in 
which they will serve the public.
    I would say, taking the gamble of being stoned to death by 
prophesying and being wrong, that in 5 years, this tempest in 
the teapot will be nothing. People will like it. It will do an 
awful lot for the people of Wyoming and they will be very 
pleased with the results. I can say that easily because every 
one the LDS Church has done has turned out that way.
    Thank you, Mr. Chairman, for the time.
    Mr. Radanovich. Thank you, Mr. Chairman.
    I now turn the time over to Mr. Eni Faleomavaega from Samoa 
to make a statement.
    Mr. Faleomavaega. Mr. Chairman, I would be more than happy 
to defer to Mrs. Cubin if she would like to have her opening 
statement and then I will follow her, if it is all right with 
you.
    Mr. Radanovich. OK. Mrs. Cubin?

 STATEMENT OF HON. BARBARA CUBIN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF WYOMING

    Mrs. Cubin. Thank you, Mr. Faleomavaega. I also want to 
thank Chairman Hansen for granting me a field hearing in 
Wyoming regarding Martin's Cove Land Transfer Act. There has 
been a great deal of interest in this legislation in my home 
State, both in support and in opposition. It was very important 
to me that my constituents, many of whom could not afford to 
travel all the way to Washington to attend a hearing, were 
allowed to have their thoughts and their suggestions on the 
record, and I sincerely thank you for that, Chairman Hansen.
    I also want to thank Chairman Radanovich, Representative 
Rehberg, and Representative Faleomavaega, who took time out of 
their very busy schedules to visit my hometown of Casper, 
Wyoming. Two weeks ago, we attended a hearing on this issue in 
Wyoming. My constituents and I greatly appreciate your time, 
and you were so generous to provide this on a matter that is of 
such great importance to us, so thank you, Chairman Radanovich.
    I also want you to know that Chairman Radanovich made that 
4,000-mile trek the day before his son's birthday, and having 
two sons of my own, that is not lost on me, so thank you very 
much, gentlemen.
    As anyone who has been involved in this issue is well 
aware, the Martin's Cove Land Transfer Act is an issue where 
emotions run unusually high. This bill has posed a very, very 
difficult decision for me in representing the people of 
Wyoming. I have always believed in the concept of trading, 
swapping, or selling Federal lands, but only if the result 
makes good sense for the people of Wyoming.
    After a great deal of deliberation and fact finding, at the 
end of the day, it is my duty to represent the preponderance of 
support in the State. The majority of my constituents do not 
support this legislation over concerns of access, policy, and, 
therefore, I cannot support this bill.
    I could not have more respect for Chairman Hansen and the 
position he has taken. He, too, must represent the best 
interests of his home State and district and this legislation 
serves his constituency well.
    I suspect this will not be the first time that many of the 
good and reasonable people of Utah and Wyoming disagree on an 
issue and it certainly will not be the last. We need only wait 
until the college football season begins so that Wyoming, Utah, 
and BYU can get in their annual border wars.
    Chairman Hansen has fought courageously for Western issues 
for over two decades here in Washington and I have been on his 
side of the fence practically every time for over 7 years, from 
the Endangered Species Act to the wise use of our public lands. 
The Chairman has been a model Western Congressman and one that 
I try to emulate.
    Having said that, this bill places me in an impossible 
situation. I oppose the bill properly to represent the 
interests of my constituents, but I feel it necessary to amend 
the bill with regards to access and other areas to ensure that 
the general public will always have access to the area if the 
bill becomes law. Let me explain.
    The Sun family, who owned the ranch, the Sun Ranch, 
adjacent to the cove for over a century did not provide open 
and free access to all who wished to see the site. They charged 
a fee of $30 many times to cross their private Sun Ranch to get 
to Martin's Cove. If one was healthy and adventurous, if they 
did not hate dirt, they could hike free of charge on public 
lands three miles around the private land on a small footpath 
and reach the site on foot, but unfortunately, you have to be 
healthy and able to do that. If you are elderly or with 
children, a round trip of six miles, it basically means there 
was no access to the Sun Ranch.
    When the Church acquired these lands several years ago from 
the Sun family, they, for the very first time, freely opened 
their land to provide access to Martin's Cove, for which they 
deserve great credit. They worked with the Bureau of Land 
Management to develop a site with a walking trail, 
interpretative signs, gathering items of historical 
significance, not just related to the Mormon religion but from 
the entire region to be housed in an excellent visitors' 
center. We have been there to look at it and we know what is 
there and they have done a wonderful job.
    In exchange for these improvements, the Church agreed to an 
access easement which would allow the general public to cross 
their private land in order to utilize the $250,000 of 
improvements that were made by the BLM for things that they had 
done on the cove. This agreement will expire in March of 2000 
[sic]. We all, I believe, owe a debt of gratitude to the Church 
for allowing free access across private lands to the general 
public in order to visit a site that they could not visit for 
100 years.
    But I do believe it is essential that an access amendment 
be put in this bill to ensure that access will be provided 
across both the Sun Ranch and through the newly acquired BLM 
lands holding the cove. This amendment will guarantee future 
generations access to the area should the bill pass.
    How can we best guarantee the general public will have 
access beyond 2004 when the access agreement expires? Will the 
Church allow access to continue across their lands if this date 
does not occur? We do not know. But either way, we certainly 
must respect their right as private property owners to do as 
they see fit with their property. So in the current situation, 
does the sale of Martin's Cove with an amendment that would 
provide access as a condition of the sale guarantee the good 
people of Wyoming permanent access that they do not now have? 
Maybe so.
    My vote on this bill will not be about the LDS Church, 
which I greatly admire, but rather a vote to maintain the 
status quo in the management and maintenance of Martin's Cove 
for future generations to visit. I pledge to continue to do 
everything in my power to ensure that both the Church and 
members of the general public have every opportunity to visit 
this site and learn about the tragedy that occurred there. The 
cove represents an essential part of Wyoming heritage and a 
very tragic chapter in the history of the Church of Jesus 
Christ of Latter-day Saints.
    Thank you, Mr. Chairman, and thank you for indulging me 
extra time.
    Mr. Radanovich. Thank you, Mrs. Cubin.
    May I turn the gavel over to Mr. Faleomavaega, please.

STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN CONGRESS 
                      FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing today on H.R. 4103, a bill which 
would direct the Secretary of the Interior to transfer certain 
lands in Natrona County, Wyoming, to the Corporation of the 
Presiding Bishop of the Church of Jesus Christ of Latter-day 
Saints. Initially, too, I would like to offer my personal 
welcome to the Presiding Bishop of the Church of Jesus Christ 
of Latter-day Saints, Elder David Burton, and also Elder Staley 
representing the Church here this morning.
    Mr. Chairman, at the request of Congresswoman Barbara 
Cubin, our Subcommittee on National Parks and Public Lands held 
a field hearing in Casper, Wyoming, on May 4 to ensure that the 
residents of Wyoming were given an opportunity to be heard on 
this matter. I was privileged to travel to Casper for the 
hearing and I even had the opportunity to accompany 
Congresswoman Cubin to actually visit Martin's Cove.
    For the record, Mr. Chairman, I would like to note that 
this is not a Utah initiative. The people of Wyoming, mostly 
members of the Church of Jesus Christ of Latter-day Saints, 
initiated this effort out of respect for the unique events 
which figured prominently and singularly in the fate of the LDS 
Church. It is my understanding that more than 6,000 residents 
of Wyoming have signed a petition supporting this legislation 
and that even members of the Wyoming State Legislature have 
also expressed their support.
    During the May 4 hearing, a representative of the 
Department of the Interior testified, and I want to note that 
they made some very constructive suggestions on how to improve 
the provisions of the bill, and I believe these are matters 
that we should seriously consider.
    Mr. Chairman, I am an original cosponsor of this 
legislation and I also want to note for the record that I am a 
convert member of the Church of Jesus Christ of Latter-day 
Saints and very proud of it.
    As you are aware, the leaders of the LDS Church have 
expressed an interest to purchase Federal land known as 
Martin's Cove because of a tragedy that took place some 146 
years ago. My understanding is that two handcart companies, the 
Willie and Martin Companies, were composed of almost 1,000 
members of the LDS Church who immigrated from England and 
Holland. These people were not familiar with the harsh winters 
of the Midwest and were attempting to reach Salt Lake City, 
Utah, by means of pulling specially made handcarts across the 
plains, some 1,300 miles in my understanding, because most were 
poor and could not afford to purchase covered wagons and teams 
of oxen.
    In October of 1856, these immigrants were caught in an 
early winter storm without sufficient food and clothing. 
Despite heroic efforts by LDS members and leaders who sent 
teams from Salt Lake City to locate and assist the two 
companies, over 200 men, women, and children died of starvation 
and freezing temperatures within the surrounding area that is 
now known as Martin's Cove.
    I am aware there is some argument about what constitutes a 
burial site. There is even argument about the exact location 
where the people of the Willie and Martin Handcart Companies 
were buried. What we do know is that many of those who perished 
near Martin's Cove were wrapped in blankets and placed in piles 
and covered in snow because the ground was so frozen, graves 
could not be dug. Does this make the ground less significant or 
less sacred? I do not think so.
    From the perspective of any thoughtful person, Martin's 
Cove is a burial site of historical and religious significance. 
Despite its recognized historical significance, the Federal 
Government has done little to facilitate public access to the 
site. It is my understanding that no access, highway 
notification, or facilities were available to the public until 
the LDS Church, in cooperation with the Sun family, purchased 
fee simple lands adjoining Martin's Cove in 1996.
    Mr. Chairman, as far as I am concerned, any burial site is 
sacred ground, and if you want to talk about desecration of 
burial sites, one only needs to go to the Smithsonian 
Institution and you see thousands and thousands of human 
skeleton remains of Native Americans from sacred grounds that 
were uncovered by poachers and people who had no sense of 
appreciation of what it means when someone is dead and buried 
properly. This is something that we do understand and 
appreciate a little more.
    Since 1996, the investment, the construction and operation 
of facilities necessary to accommodate the public on fee simple 
lands near Martin's Cove has been provided by the LDS Church, 
with trail development in the cove provided by the BLM with the 
assistance of volunteers from the Church. I want to commend the 
BLM for permitting treks across its lands from Sixth Crossing 
west to Rock Creek for working cooperatively with the Church in 
recent years to facilitate public access to this site.
    It is unfortunate, Mr. Chairman, that some in the media 
have purposely chosen to malign the LDS Church because of its 
efforts to acquire Martin's Cove. I take issue with those who 
consistently refer to Martin's Cove as a national historic 
site. I believe those who continue to use this terminology are 
either misinformed or intentionally desire to mislead the 
public by suggesting that this bill would circumvent national 
policy or set historical precedent if the LDS Church acquired 
this land.
    The fact of the matter is, there are only 118 national 
historic sites in the United States and Martin's Cove is not 
one of them. Martin's Cove is listed on the National Register 
of Historic Places. In contrast to national historic sites, 
there are more than 74,000 places listed on the National 
Register of Historic Places. Time and time again, the Federal 
Government has conveyed lands listed on the National Register 
of Historic Places to private entities. The LDS Church is 
simply asking for fair and equitable consideration.
    The question has also been raised about setting a precedent 
for American Indians to purchase Federal lands for religious 
purposes. The fact is, Congress already has passed several 
pieces of legislation which transferred Federal lands to 
certain Native American Indian tribes because of the cultural 
and religious significance of those lands to the tribes. 
Congress has previously authorized the sale of public land to 
the Wesleyan Church in 1985. A similar sale of Federal land to 
the Catholic Church was authorized in 1988.
    I might also add that Federal dollars were used to 
establish the Holocaust Museum in Washington, D.C., and 
rightfully so. This museum is a beautiful memorial to a people 
who have suffered cruelties beyond all comparison. When we talk 
about the extermination of six million Jews and what happened 
under the Nazis, I just could not, for me personally, Mr. 
Chairman, see a better way that we recognize this special 
facility that everybody has an opportunity to visit from all 
over the country and all over the world.
    If there is ever a statement that I would like to make to 
anybody wanting to visit the Holocaust Museum, Mr. Chairman, 
there is probably one phrase that I will never forget and that 
is, ``Never again.'' Never again, I hope to God that we will 
never have to repeat something like that again.
    It is not unprecedented that the LDS Church seek to honor 
and to give special recognition to those who suffered and died 
in Martin's Cove. Martin's Cove holds special meaning to the 
LDS Church and its members because of those who lost their 
lives as they sought to escape religious persecution, bigotry, 
and intolerance.
    Despite good faith efforts by both the BLM and the LDS 
Church to reach agreement on this matter through transfer or 
exchange of lands, these options have apparently not been 
possible under the circumstances. We are now deliberating a 
third possible option, and that is a fee simple purchase of 
some 600 acres of land. I believe it is only appropriate that 
the Congress support the sale of this land to the LDS Church 
with appropriate changes to the bill that will be satisfactory 
to both the LDS Church and the BLM.
    Mr. Chairman, I wanted to thank our witnesses for giving 
their time to provide the public and members of this Committee 
additional information on this issue, and I also want to give 
my personal thanks to the senior ranking member of our 
Committee, the gentleman from West Virginia, Mr. Rahall, for 
his support of this legislation.
    Mr. Faleomavaega. Mr. Chairman, I would like to ask 
unanimous consent to submit for the record the statement of the 
Ranking Democrat of the Resources Committee, Mr. Rahall, in 
support of this legislation, H.R. 3858, which we will be 
hearing sometime later this morning.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Faleomavaega.
    [The prepared statement of Mr. Rahall follows:]

    Statement of The Honorable Nick J. Rahall II, Ranking Democrat, 
                  Committee on Resources, on H.R. 3858

    The New River Gorge National River in West Virginia was established 
by legislation I sponsored that was made part of the National Parks and 
Recreation Act of 1978. The national river consists of a 53-mile gorge 
segment of the river that contains world class whitewater rapids as 
well as scenic, historic and recreational features.
    Since 1978, the boundary of the national river has been modified 
twice. The first boundary modification was made as part of the West 
Virginia National Interest River Conservation Act of 1988. This 
legislation provided for Federal designations of three tributaries of 
the New River, establishing the Gauley River National Recreation Area 
along 25 miles of the Gauley River and six miles of the Meadow River, 
and the 11-mile Bluestone National Scenic River.
    As with the New River Gorge National River, the Gauley River 
National Recreation Area also contains world class whitewater rapids. 
In fact, last year the world whitewater rafting championships were held 
in the United States for the first time and the venue was the New and 
Gauley Rivers.
    Finally, additional boundary modifications were made to the New 
River Gorge National River as part of the Omnibus Parks and Public 
Lands Management Act of 1996.
    It is important to note that with the exception of the Bluestone 
National Scenic River, these Federally designated river segments were 
all primarily carved out from private lands. All Federal acquisitions 
have been on a willing buyer/willing seller basis.
    It is also important to note that the New River Gorge National 
River is still a developing unit of the National Park System. As its 
popularity as a recreation destination increases, more pressure is 
brought on the resource values for which it was established. This 
certainly is nothing new, as many units of the National Park System are 
going through the same experience. But in the case of the New River, 
some of these pressures can be alleviated through boundary 
modifications such as those being proposed by H.R. 3853.
    In general, the proposed boundary modifications would enhance the 
management and use of natural and scenic resources of the New River 
Gorge National River. The legislation would add 1,962 acres to the park 
unit. The additions consist of six tracts of land held by five owners, 
all of which are willing sellers.
    The tracts of land are as follows:
    <bullet> LNew River Adventures Resort (389 acres) -- This tract 
consists of steep forested slopes on the West side of the gorge 
immediately North of the current boundary. The parcel would contribute 
to the protection of the scenic values of the New River, as well as 
those of Hawk's Nest State Park, which is directly across the gorge 
from the northern portion of the tract.
    <bullet> LAlabama Properties (259 acres) -- This tract of land is 
an extension of a tract held by Alabama Properties that is already 
within the national river's boundary. It is also steep and wooded, and 
lies directly across from the New River Adventures Resort tract.
    <bullet> LNuttall Estate (52 acres) -- These are two small parcels 
(22 and 30 acres). Acquisition of these tracts will alleviate parking 
and trespassing issues associated with an extremely popular rock 
climbing site. Adequate parking does not exist along the rim of the 
gorge to accommodate the volume of vehicles used to access the rock 
climbing areas.
    <bullet> LBerwind Land Company (649 acres) and Rush Creek Land 
Company (613 acres) -- These two tracts of land are adjacent to each 
other and provide an opportunity to include in the national river flat 
land on the gorge rim that would alleviate potential development 
problems with the nearby communities of Oak Hill and Fayetteville. A 
golf course was recently built in the area and small subdivisions are 
beginning to occur along the Salem-Gatewood Road which connects the 
rural area between these two towns. In addition, with respect to the 
Berwind tract, there is a trail that zigzags in and out of the property 
from Kaymoor Top to the Kaymoor Bench level. In order to continue 
maintaining this trail for public use it should be included in the 
boundary of the national river. With respect to the Rush Creek tract, 
the national river boundary currently drops below the gorge rim in this 
location. This was probably an oversight when the original boundary was 
drawn as the intent was to provide at a minimum rim-to-rim lands within 
the national river. However, this area contains a section approximately 
one mile long where the top of the gorge walls are not inside the 
boundary.
    The bill also includes a provision aimed at settling an 
encroachment situation in the vicinity of Beauty Mountain. Property 
owners Scott and Mary Robertson have a tract of land immediately 
adjacent to the national river boundary. The Robertsons constructed a 
house on this tract. However, half of the house now lies on land within 
the national river boundary. The National Park Service purchased the 
tract of land within the boundary from another private landowner after 
construction had begun on the Robertson house (the basement was already 
in place). The National Park Service proposes a land exchange with the 
.30 of an acre of encroached property being transferred to the 
Robertsons and the Robertsons transferring .30 of an acre of their 
property to the National Park Service. This would be a fee simple 
exchange.
                                 ______
                                 
    Mr. Radanovich. Any other members wishing to make an 
opening statement?
    [No response.]
    Mr. Radanovich. With that, we will go on to our first 
panel, which includes the Honorable Tom Fulton, Deputy 
Assistant Secretary for Land and Minerals Management from the 
Department of the Interior, and also Ms. Katherine Stevenson, 
Associate Director of Cultural Resources Stewardship and 
Partnerships of the National Park Service, Department of the 
Interior, in Washington.
    Lady and gentleman, welcome to the Committee. Mr. Fulton, 
if you would like to begin your testimony, that would be great. 
Please keep in mind that we do like testimonies to be under 5 
minutes, so observe the traffic lights that you will see at 
your table there. Thank you.H.R. 4103

 STATEMENT OF TOM FULTON, DEPUTY ASSISTANT SECRETARY FOR LAND 
   AND MINERALS MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, 
                        WASHINGTON, D.C.

    Mr. Fulton. Thank you, Mr. Chairman, and thank you, 
Chairman Hansen, for this opportunity to offer the 
administration's view of H.R. 4103. I ask that my statement be 
entered into the record as if read and I will attempt to 
summarize.
    Mr. Radanovich. There is no objection, so ordered.
    Mr. Fulton. Thank you. The Department of the Interior 
supports the goals of H.R. 4103, the Martin's Cove Land 
Transfer Act. However, the Department has concerns with the 
bill but would like to work with members of the Subcommittee to 
address them.
    Martin's Cove has, as others have mentioned, been listed on 
the National Register of Historic Places. It is significant and 
the Department is proud of the 262 million acres that it 
manages and there are a lot of significant sites that it does 
manage.
    Martin's Cove is located near the confluence of four 
national historic trails, the California, Oregon, Mormon 
Pioneer, and Pony Express, all of which pass within a mile of 
the Martin's Cove site. All of these are administered by the 
National Park Service in cooperation with BLM under the 
provisions of the National Trails System Act.
    The 1,640-acre parcel that is proposed here in this bill 
for conveyance contains portions of the Tom Sun Ranch National 
Historic Landmark and is contiguous to private lands. The site 
includes unmarked emigrant graves, as well as historic emigrant 
camp locations, as well as archaeological remains of Native 
American prehistoric sites.
    Martin's Cove is an important part of the history of the 
westward emigration of America and it is particularly important 
to the descendants of the Mormon pioneers who traveled through 
it. It is a symbol of the extreme hardship suffered by many 
seeking a better way of life, traveling across the continent. 
For many, the Mormon handcart tragedy stands out as a single 
devastating event that shaped a culture that traveled along the 
Oregon, the Mormon Pioneer, the California, and the Pony 
Express National Historic Trails.
    The Department recognizes the unique significance of 
Martin's Cove to the Church and understands and supports the 
intent of this proposed legislation to enable the Church to 
manage the site's historic resources through educational and 
recreational opportunities for all members of the public.
    First, the Department believes it is important to pursue an 
approach that ensures continued public access and resource 
protection within Martin's Cove in perpetuity. Given the 
existence of public trails on the site, we recommend that 
before a transfer of title, a conservation easement be placed 
on the lands proposed for conveyance to protect the existing 
geological and historical resources of the area. In addition, a 
perpetual public access easement should be considered as part 
of any conveyance that would allow for continued public access 
to the area. The Department would also recommend inclusion of a 
revisionary clause for the Federal Government in order to 
ensure that the site will be protected should the Church desire 
to discontinue ownership or management of it in the future.
    Second, the Department believes the legislation should 
attempt to direct revenues received from the transaction back 
into the resource in order to further benefit the public's 
appreciation and enjoyment of the trails and facilities in the 
area. Terms such as these would allow for private ownership by 
the Church, provide long-term protection of the resources, and 
retain public access to the site.
    Third, the Department is concerned that the lands conveyed 
represent only those that are absolutely necessary to 
accomplish the objectives of the Church and the public. Toward 
that end, we commit to work with the Committee to ensure that 
the proposed conveyance is confined to the smallest area 
compatible with the proper care and management of the resources 
sought to be protected.
    An appraisal of this property should be based on 
conventional appraisal standards to provide a sound basis for 
value. The proposed legislation includes procedures that may 
need clarification to allow for smooth conveyance of the 
property and we would be pleased to work with the Committee on 
these.
    Additionally, it is unclear whether the Federal Government 
will be reimbursed for past improvements in addition to 
receiving fair market value. This should be clarified to ensure 
fair reimbursement to the taxpayers. Finally, as is standard 
practice, the mineral estate should be reserved to the Federal 
Government.
    The Department is concerned that H.R. 4103 could be viewed 
as creating a precedent for conveying ownership of historic or 
prehistoric public sites that are deemed sacred to a particular 
group or culture. We are concerned and want to ensure that this 
legislation not establish a precedent for similar land 
transfers in the future, and we want to work closely with the 
Committee to address this concern.
    If crafted with these elements in mind, the Department 
believes this legislation provides benefits for the public 
while accommodating the historical and cultural assets of the 
site.
    Thank you for the opportunity to testify, and I will take 
any questions you might have. Thanks.
    Mr. Radanovich. Thank you very much, Mr. Fulton.
    [The prepared statement of Mr. Fulton follows:]

Statement of Tom Fulton, Deputy Assistant Secretary, Land and Minerals 
       Management, U.S. Department of the Interior, on H.R. 4103

    Thank you for the opportunity to provide testimony regarding H.R. 
4103, a bill to direct the Secretary of the Interior to transfer 
certain lands in Natrona County, Wyoming, to the Corporation of the 
Presiding Bishop, of the Church of Jesus Christ of Latter-day Saints 
(``Church''). H.R. 4103, the Martin's Cove Land Transfer Act, involves 
1,640 acres of public lands managed by the Bureau of Land Management 
(BLM) located 60 miles southwest of Casper, in Natrona County, Wyoming. 
The Department supports the goals of H.R. 4103. However, the Department 
has some concerns with this bill and would like to work with the 
Subcommittee to address them.
Background
    Martin's Cove was listed on the National Register of Historic Sites 
in 1977. It is significant because in 1856, Mormon pioneers traveling 
west pushing handcarts were trapped by a severe early winter snowstorm 
at Martin's Cove and it is estimated that between 135 and 150 of the 
pioneers perished. Martin's Cove is located near the confluence of four 
National Historic Trails, the California, Oregon, Mormon Pioneer and 
Pony Express trails, which all pass within a mile of the Martin's Cove 
site. All of these trails are administered by the National Park 
Service, in cooperation with the Bureau of Land Management, under the 
provisions of the National Trails System Act. The 1,640-acre parcel 
proposed for conveyance by this legislation contains portions of the 
Tom Sun Ranch National Historic Landmark and is contiguous to private 
lands. The site includes unmarked emigrant graves, as well as historic 
emigrant camp locations and some archeological remains of Native 
American prehistoric sites.
    Martin's Cove is an important part of the history of the westward 
emigration across 19th century America, and it is particularly 
important for the descendants of the Mormon pioneers who traveled 
through it. It is a symbol of the extreme hardship suffered by many who 
sought a better way of life by traveling across the continent. For 
many, the Mormon Handcart Tragedy stands out as a single devastating 
event that shaped a culture that traveled along the Oregon, the Mormon 
Pioneer, the California, and the Pony Express National Historic Trails.
    The Department recognizes the unique significance of Martin's Cove 
to the Church and understands and supports the intent of this proposed 
legislation to enable the Church to manage the site's historic 
resources through educational and recreational opportunities for all 
members of the public.
Public Access and Benefits
    First, the Department believes it is important to pursue an 
approach that ensures continued public access and resource protection 
within Martin's Cove, in perpetuity. Given the existence of public 
trails on the site, we recommend that, before any transfer of title, a 
Conservation Easement be placed on the lands proposed for conveyance to 
protect the existing geological and historical resources in the 
Martin's Cove area. In addition, a perpetual public access easement 
should be considered as part of any conveyance that would allow for 
continued public access to the Martin's Cove area. The Department would 
also recommend inclusion of a reversionary clause to the Federal 
Government in order to ensure the site will be protected should the 
Church desire to discontinue ownership or management of it in the 
future.
    Second, the Department believes the legislation should attempt to 
direct revenues received from the transaction back into the resource in 
order to further benefit the public's appreciation and enjoyment of the 
historic trails and facilities in the area. Terms such as these would 
allow for private ownership by the Church, provide long-term protection 
of resources, and retain public access to the improvements at the site.
    Third, the Department is concerned that the lands conveyed 
represent only those that are absolutely necessary to accomplish the 
objectives of the Church and the public. Toward that end, we will work 
with the Committee to ensure that the proposed conveyance is confined 
to the smallest area compatible with the proper care and management of 
the resources sought to be protected.
Appraisal Process, Funds, and Mineral Estate
    An appraisal of this unique historic property should be based on 
conventional appraisal standards to provide a sound basis for value. 
The proposed legislation includes procedures that may need 
clarification to allow for a smooth conveyance of the property and we 
would be pleased to work with the Committee on these.
    Additionally, it is unclear whether the Federal Government (BLM) 
will be reimbursed for past improvements in addition to receiving fair 
market value for the lands, and this should be clarified to ensure a 
fair reimbursement to the taxpayers. Finally, as is standard practice, 
the mineral estate should be reserved to the Federal Government.
Potential Precedent-Setting Issues
    The Department is concerned that H.R. 4103 could be viewed as 
creating a precedent for conveying ownership of historic or prehistoric 
public sites that are deemed sacred to a particular group or culture. 
We are concerned and want to ensure that this legislation not establish 
a precedent for similar land transfers in the future, and we want to 
work closely with the Committee to address this concern.
Conclusion
    If crafted with these elements in mind, the Department believes 
this legislation could provide absolute positive benefits for the 
public while accommodating the historical or cultural interests of a 
private group or foundation. Thank you for the opportunity to provide 
testimony on H.R. 4103. This concludes my testimony and I will be 
pleased to answer any questions the Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. We are going to go on to our next witness, 
and then after that open up the panel for questions. Keep in 
mind, we do have three bills here that we are hearing, and here 
to speak to the other two bills, H.R. 36 and H.R. 3858, is Ms. 
Katherine Stevenson with the National Park Service. Katherine, 
welcome, and please begin your testimony. Keep within the 5 
minutes and tell us all about these two bills and your 
positions on them.

STATEMENT OF KATHERINE STEVENSON, ASSOCIATE DIRECTOR, CULTURAL 
RESOURCES STEWARDSHIP AND PARTNERSHIPS, NATIONAL PARK SERVICE, 
       U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.

    Ms. Stevenson. Yes, sir. Thank you very much. Thank you for 
the opportunity to provide testimony on H.R. 36 and H.R. 3858. 
If I may, I would like to summarize my comments and submit the 
full text for the record.
    H.R. 36 would amend the National Trails System Act to add a 
new category of trails and would designate the American 
Discovery Trail as the first national discovery trail. The 
Department supports the concept of creating a new category of 
national discovery trails. With regard to the section of the 
bill that would designate the American Discovery Trail, the 
Department recommends that the Committee defer action on this 
designation. The Department believes that we need to continue 
to focus our efforts on the maintenance backlog ahead of other 
priorities.
    We have concerns with restructuring the National Trails 
System Act to accommodate H.R. 36's amendments. The existing 
Act is already complex and very difficult to follow. The 
Department recommends the provisions as detailed in the Senate 
version of this bill, S. 498. Specifically, we have concerns 
about the administrative challenges primarily to State and 
local governments contained in Sections 7(A)(a) and 7(A)(b). 
While we support very strongly protecting the rights and 
interests of local landowners, we believe that the existing 
processes followed by trail administrators, partner 
organizations, and State and local governments adequately 
protect these interests.
    The intent and purpose of Section 7(A)(d) regarding the 
prevention of trespass on private land is already found in 
Section 7(H)(1) of the National Trails System Act. Finally, we 
believe the proposed authority in 7(A)(e) regarding rights of 
way is covered in Section 9 of the National Trails System Act.
    We would be pleased to work with you to address these 
issues.
    As far as H.R. 3858, it would expand the boundary of New 
River Gorge National River by approximately 1,960 acres and 
would exchange one-quarter-acre of private land with an 
adjacent landowner. The Department supports the land exchange 
but requests that Congress defer action on the boundary 
expansion until additional planning is completed. No public 
involvement has been engaged regarding acquisition of these 
lands and we would like to make sure that that happens.
    This concludes my prepared remarks. I would be happy to 
answer any questions you might have.
    Mr. Radanovich. Thank you very much.
    [The prepared statements of Ms. Stevenson follows:]

    Statement of Katherine Stevenson, Associate Director, Cultural 
  Resources Stewardship and Partnerships, National Park Service, U.S. 
                 Department of the Interior, on H.R. 36

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 36. This bill would amend 
the National Trails System Act by adding an additional category of 
trail known as the national discovery trail and by designating the 
American Discovery Trail as the first national discovery trail.
    The Department supports the concept of creating a new category of 
national discovery trails. We have some concerns with H.R. 36 regarding 
the restructuring and renumbering of the existing National Trails 
System Act to accommodate the amendments relating to the new category 
of national discovery trails, and the special requirements for national 
discovery trails stated in the new Section 7A. The Senate passed a 
similar bill, S. 498, on August 3, 2001, to the National Trails System 
Act. The Department supports the provisions on the new category of 
discovery trails in S. 498 as passed by the Senate, and recommends the 
committee adopt this language.
    With regard to the section of this bill that would designate the 
American Discovery Trail as a national discovery trail, the Department 
recommends that the Committee defer action on this designation during 
the remainder of the 107th Congress. The Department has reviewed our 
progress on the President's Initiative to eliminate the deferred 
maintenance backlog, and it is clear that we need to continue to focus 
our resources on caring for existing areas in the National Park System.
    The American Discovery Trail (ADT) was proposed in 1990 as a 
continuous mid-continent, coast-to-coast trail to link metropolitan 
areas to the nation's major long-distance trails, as well as to shorter 
local and regional trails. The ADT's founders envisioned the trail to 
be the strong backbone of America's National Trails System.
    In October 1992, through P.L. 102-461, Congress directed the 
Secretary of the Interior to study the feasibility and desirability of 
adding the ADT to the National Trails System. This study was completed 
in December of 1995 and submitted to Congress in 1998. The 
approximately 6,356- mile route of the ADT, as described in this 
legislation and mapped in the feasibility study, extends from Cape 
Henlopen State Park in Delaware to Point Reyes National Seashore in 
California. The ADT crosses the states of Nevada, Utah, Colorado, 
Nebraska, Kansas, Iowa, Missouri, Illinois, Indiana, Ohio, a bit of 
Kentucky, West Virginia, Maryland, and the District of Columbia.
    By far the most controversial issue associated with National Trails 
System is trail and trail corridor protection and, specifically, 
Federal land acquisition. The organizers of the ADT recognized this 
early on and located this trail to minimize its impact on private 
lands. It is our understanding that there are only a handful of private 
parcels crossed by the trail, and these occur where an underlying trail 
already exists, such as the Buckeye Trail in Ohio. Local and state 
jurisdictions should hold the primary responsibility for protecting and 
enhancing the ADT and its corridor on both sides.
    The National Park Service administers or helps administer 17 of the 
nation's 22 national scenic and historic trails. They range in length 
from 54 to 5,600 miles. Operating costs range from $25,000 to over 
$720,000 per year. Because of its length and complexity, costs for the 
ADT will fall somewhere in the middle of this range. The feasibility 
study team estimated the trail's comprehensive management plan would 
cost approximately $360,000 over several years, and that annual Federal 
operating costs of the trail as a national discovery trail will be 
about $400,000 a year. Additional, costs would be incurred by the 
Bureau of Land Management and the Forest Service for the management of 
the portions of the trail under their jurisdiction. There should be no 
land acquisition or protection costs for the Federal Government, since 
responsibility for trail corridor protection lies with state, local, 
and nonprofit partners. It should be noted that authority already 
exists within the National Trails System Act to appropriate any 
necessary funds to support this trail, or other trails created as 
national discovery trails. Funding for this addition to the National 
Trails System is not currently assumed in out-year budget estimates. 
Establishment of this new trail, even if authorized by Congress, would 
be contingent on Administration priorities and available resources. 
Because of our concerns about costs, as mentioned above, the Department 
recommends that the committee defer action on the section of the bill 
that designates ADT.
    We do believe that the National Trails System can be improved at 
this time by adding this new category of discovery trails, which links 
America's cities together, opens trails to a variety of users (as 
determined by local conditions), and relies on a relationship of equals 
between the Federal Government and a nonprofit partner. However, such 
trails must be limited to those that meet specific requirements and are 
of national interest and significance.
    The new category of national discovery trails would further the 
goals of the National Trails System in several significant ways--ways 
that help update the system to reflect current popular and political 
realities. The proposed national discovery trails would
    1) Llink America's long-distance trails to a variety of cities and 
towns, thereby providing population centers direct access to our 
nation's remarkable trails system;
    2) Lwelcome into the National Trails System a new category of 
trails for which the primary responsibility for protecting and 
maintaining these trails lies not with the Federal Government, but with 
others;
    3) Lallow landowners adjacent to the trail the discretion of 
changing or protecting already existing land-use activities. No land 
acquisition or changes in land use on private lands near the trails 
would be required or expected on a national discovery trail, since most 
of the trail already exists as part of other trails or roads;
    4) Lbe built largely upon existing trails and trail systems, 
thereby eliminating the need for Federal acquisitions; and
    5) Lrequire that an effective private-sector partner is present 
from the start, rather than following designation. It is our experience 
that trails created without such partners tend to flounder and do not 
serve the public well. In this case, the nonprofit partner would 
shoulder much of the coordination and certification responsibility 
which, in the past, has fallen to the Federal Government in caring for 
long-distance trails created under the National Trails System Act.
    The Appalachian Trail was the model and impetus for the National 
Trails System. When that trail was established as a national scenic 
trail in 1968, it was well-supported by a vibrant nonprofit 
organization, the Appalachian Trail Conference, with thousands of 
members and decades of trail-building and maintaining experience. For 
the National Park Service, helping protect and administer the 
Appalachian Trail from the beginning has been a mutual partnership, 
with both the conference and the service offering their skills and 
strengths to keep the trail viable and intact.
    Some of the trails subsequently established as part of the National 
Trails System have not had (and still do not have) strong partner 
organizations. In some cases, the Federal agency administering a trail 
has had to wait for such a group to get started or to assist in 
organizing it. Trail partnerships are essential to the well-being of 
the National Trails System. Both H.R. 36 and S. 498 clearly state that 
the national discovery trails shall be administered by the appropriate 
Secretary in cooperation with at least one competent trailwide 
volunteer-based organization.
    We have concerns with the restructuring of the National Trails 
System Act (Act) to accommodate H.R. 36's amendments to create a new 
category of national discovery trails. The existing Act is already 
complex and difficult to follow. Every effort should be made to 
streamline it.
    Further, we have concerns about the special requirements in the new 
Section 7A that is proposed to be added to the National Trails System 
Act. Section 7A(a) provides authority for designating national 
discovery trails on Federal and non-Federal lands. However, Congress is 
responsible for designating national discovery trails, and the 
Secretary implements this action by recognizing segments as part of a 
designated trail based upon agreements reached with local trail support 
groups. We believe that trail administrators, their partner 
organizations, and affected landowners can negotiate these agreements 
in everyone's best interests and should not be burdened by requirements 
that increase the cost and number of agreements that are reached.
    The notice requirement required by the new Section 7A(b) could be 
problematic as a database of thousands, if not millions, of addresses 
would need to be kept up-to-date to reach all affected landowners, 
communities and other stakeholders for proposed trails. Section 7(a)(2) 
of the National Trails System Act already protects the integrity of 
adjoining land users by requiring the Secretary to minimize any adverse 
effects upon the adjacent landowner in selecting rights-of-way for 
trails. The Secretary is also required to harmonize and/or complement 
already established multiple-use plans for a specific area. Thus, we 
believe the new Section 7A(b) and (c) are unnecessary.
    The basic content of the new Section 7A(d) concerning the 
prevention of trespass of private lands is already found in Section 
7(h)(1) of the National Trails System Act. This section of the law 
requires that-- . . . the appropriate Secretary shall also initiate 
consultations with affected States and their political subdivisions to 
encourage . . . the development and implementation by such entitles of 
appropriate measures to protect private landowners from trespass 
resulting from trail use and from unreasonable personal liability and 
property damage caused by trail use.'' Because this section already 
covers that recommended by the new Section 7A(d), we believe the new 
section is unnecessary.
    Finally the proposed authority in the new Section 7A(e) concerning 
rights-of-way is confusing given the existence of Section 9 of the 
National Trails System Act that currently addresses this issue.
    We would be glad to work with the Committee to resolve these 
concerns. We suggest adoption of the language in S. 498. It is clear 
and does not alter the existing structure of the National Trails System 
Act.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                                 ______
                                 

   Statement of Katherine Stevenson, Associate Director for Cultural 
  Resources Stewardship and Partnerships, National Park Service, U.S. 
                Department of the Interior, on H.R. 3858

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 3858, a bill to expand the 
boundary of the New River Gorge National River by 1,962 acres and to 
exchange approximately , acre of private land with an adjacent private 
landowner.
    The Department is unable to support H.R. 3858 in its entirety at 
this time. The Department would ask that Congress defer action on 
subsection (a), regarding a boundary adjustment, until additional 
planning addressing the acquisition and costs of additional lands at 
New River Gorge National River has been completed. The Department does 
however support subsection (b) of H.R. 3858 as it provides for an even 
land exchange involving no cost or nominal cost.
    This legislation proposes to adjust the boundary of New River Gorge 
National River to include seven tracts of land encompassing 1,962 
acres. The addition of these lands within the park's boundary would 
complete the rim-to-rim acquisition of lands on both sides of the 
gorge, permanently protecting its outstanding scenery in accordance 
with the legislation that originally designated the park. However we 
have not yet completed a formal study with public involvement to 
determine the appropriateness of including these lands within the park.
    The last provision of this bill proposes a land exchange and 
boundary modification with an adjacent local landowner for a parcel of 
land, approximately , acre in size, of equal value and equal size. This 
resolves an issue of private property encroachment and as a result the 
boundary is slightly altered, but there is no net change in the 
authorized acreage.
    New River Gorge National River was established in 1978 to conserve 
and protect 53 miles of the New River as a free-flowing waterway. This 
unit of the National Park System encompasses over 70,000 acres of land 
along the New River between the towns of Hinton and Fayetteville. The 
park and surrounding area are rich in cultural and natural history, 
with an abundance of scenic and recreational opportunities. The New and 
Gauley Rivers offer world-class whitewater boating, rock climbing, and 
fishing. The New River Gorge Bridge is the longest single span arch 
bridge in the world, and the second highest bridge in the United 
States. The New River Gorge has the most diverse assemblage of plant 
species of any river gorge in the southern Appalachians, it possesses 
considerable animal diversity, and is the state's leading warm-water 
fishery. Cultural resources include significant archeological sites as 
well as 19th and 20th century historic resources, towns, and commercial 
centers related to mining and transportation of coal, that played an 
important role in America's industrial history. New River Gorge 
National River is located within the National Coal Heritage Area 
(1996), and the New River is one of 14 rivers designated an American 
Heritage River (1998).
    All of the lands included in the proposed boundary adjustment are 
currently under private ownership and we understand that all six 
private landowners are willing sellers. Two of the tracts proposed for 
inclusion contain approximately 648 acres of steep, wooded slopes 
within the gorge, and are adjacent to Hawk's Nest State Park. The two 
other parcels, totaling 52 acres, provide access to an area that is 
heavily used by rockclimbers and other visitors. The remaining two 
parcels would add 1,262 acres along the rim of the gorge. Completion of 
the planning process at New River Gorge National River will ensure that 
there is adequate public review regarding our land acquisition needs.
    As you know the Department is committed to the President's 
Initiative to eliminate the National Park Service's deferred 
maintenance backlog. The planning process would also address the land 
acquisition, operations, and development costs of the lands proposed 
for addition. We estimate that the addition of 1,962 acres within the 
boundary would require no less than $2 million in additional land 
acquisition funds. It is possible that several of the tracts of land 
proposed for acquisition would be maintained in an undeveloped 
condition and therefore have minimal administrative costs associated 
with them. However one tract may require some development to provide 
adequate accommodation for the high levels of public use.
    Thank you for the opportunity to comment. This concludes my 
prepared remarks. I would be glad to answer any question that you or 
members of the subcommittee might have.
                                 ______
                                 
    Mr. Radanovich. I will turn to other members of the panel 
to determine if there are any questions that need to be asked 
of either of the witnesses. Mr. Hansen?
    The Chairman. Thank you, Mr. Chairman.
    Mr. Fulton, I noticed in your comments you basically had 
four concerns. One was continued public access, one was land 
conveyed, one was appraisal, and one was past improvements. 
What past improvements have you folks done?
    Mr. Fulton. It is my understanding that we have worked 
cooperatively with the Church on access issues through the Sun 
Ranch and I think those are what the BLM is addressing here.
    The Chairman. Is it not the policy of the BLM that if an 
entity, such as the Church, in this position, and I am sure 
they would not bring this up, but I would, who has put in time 
and effort themselves, does the BLM consider that as an offset 
to anything?
    Mr. Fulton. Well, what the BLM--
    The Chairman. I mean, if they have suggested it, they have 
recommended it, they have thought it should be done, do they 
consider that an offset to the selling process?
    Mr. Fulton. They would consider those inputs from 
interested partners as a valuable piece of what is being 
attempted. The dollars are limited. The BLM and the 
administration look for partnerships. The Church is a very 
valuable partner in this process and we would want that 
relationship to continue and to grow.
    The Chairman. You know, in this Committee, we have held in 
the last 20 years maybe 15 to 20 hearings on trades, swaps, 
sales. The most frustrating fudge factory I have ever been 
involved in is trying to move Federal ground, and it usually 
ends up done by legislation. What do you think that you and the 
new Director ought to work with us in coming up with a better 
way to do these things?
    Mr. Fulton. I absolutely agree and we would be very excited 
to work with the members of the Committee in doing just that. 
The Southern Nevada Lands Act is a way of doing business in 
Southern Nevada. Land management in the BLM is a dynamic 
process. We are looking into it. We want to explore innovative 
ways of making sure that we are providing the best management 
and sometimes actually selling those properties may be the best 
thing to the public and for the long-term future of that 
particular piece of property. So we want to look at a wide 
variety of opportunities and would be excited to work with the 
Committee.
    The Chairman. I am glad to hear you say that, because I 
would say that if I went back and looked at our inventory in 
this particular committee right now, we would have close to 30 
people wanting to make land exchanges with the BLM or the 
Forest Service. It is the most frustrating experience we have 
around here, and we end up doing it this way, by legislation. 
And really, it could be done very smoothly, very adequately by 
the BLM, by the Forest Service, by the Park Service, by 
Reclamation, and I always keep wondering, why are we always 
involved in these things? Anyway, we will call on you to do 
that and thank you for letting me say that. I appreciate your 
response.
    Thank you, Mr. Chairman.
    Mr. Fulton. Thank you.
    Mr. Radanovich. Thank you, Mr. Chairman.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Fulton, you are the expert on all Federal laws with 
reference to something like this and I kept using this word 
``precedent'' and you also expressed concern about setting up a 
precedent. Can you elaborate on what you meant by this? Are you 
suggesting that this is the first time ever that something like 
this has transpired in terms of the sale of lands to a 
nonprofit organization, whether it be a Church or some other--
    Mr. Fulton. No, not at all. There is a great deal of public 
interest in what is being proposed in this bill and the 
administration supports the goals of this bill. However, it 
wants to clarify that what is being proposed in this bill is 
not, in fact, a precedent. So there is, given the public 
concern and the great interest in the bill, we want to ensure 
that it is absolutely clear that this is something we favor. We 
want to do it, we want to do it right, but that it does not 
necessarily set a precedent.
    Mr. Faleomavaega. I sure appreciate that. I remember in the 
hearing that we held on May 4 in Casper, one of the witnesses 
also brought out that the Federal Land Policy and Management 
Act that was passed, that certain provisions of this law 
violate the intent of this legislation. Can you comment on 
that? Are there any provisions under FLPMA that violates what 
the intent of this legislation wants to do?
    Mr. Fulton. Not that I am aware, sir. I am certainly not--I 
am not an attorney, which I take some pride in--
    [Laughter.]
    Mr. Faleomavaega. I am not an attorney, either.
    Mr. Fulton. I cannot tell you that I am aware of any 
conflict in FLPMA, which is the organic act governing the BLM, 
and what is being proposed here.
    Mr. Faleomavaega. I remember also that Ms. Kimball, who 
testified at our hearing in May, also suggested the provision 
in the bill to include a reversionary clause--is the Department 
still firm on that issue?
    Mr. Fulton. Yes. The Department feels that it is important 
that there be absolute unfettered public access to the site in 
perpetuity. We want to work with the Church to ensure that. 
However, if that is not the case at some future date, we would 
ask that it revert back.
    Mr. Faleomavaega. Is this the standard policy of BLM on all 
the lands transacted under similar circumstances, that a 
reversionary clause be included in every sale of land that we 
do with the Federal Government?
    Mr. Fulton. No, I do not think so. I think that we have 
flexibility in how we approach these matters and each one has 
its own peculiar circumstances surrounding it and we want to 
explore opportunities for partnering up. Again, we have limited 
dollars to administer these 262 million acres as America's 
largest land manager and we have to look for partnerships, and 
when we do, we have to do it in a way that makes sense and 
serves the highest public purpose.
    Mr. Faleomavaega. So if I have a nonprofit organization and 
I want to purchase certain lands in Casper, Wyoming, Federal 
land, to set up a winery or an orchard so I could set up a 
winery there in Wyoming, will that be possible in doing 
negotiations with the BLM, to sell me lands through a nonprofit 
organization?
    Mr. Fulton. Well, you could certainly come visit us about 
it and we could talk about it, although I do not know that a 
winery in Wyoming would--I mean, it is quite possible, I 
suppose.
    Mr. Radanovich. There is a winery in Wyoming.
    Mr. Fulton. There is? Wonderful.
    [Laughter.]
    Mr. Faleomavaega. I say this kiddingly, but in all 
seriousness, I was going to invite the Chairman to join me in 
this partnership, but thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Faleomavaega.
    I recognize Mrs. Cubin from the great State of Wyoming.
    Mrs. Cubin. Thank you, Mr. Chairman.
    I wanted to discuss the appraisal issues for just a moment. 
Some people have suggested that the appraisal for the land 
should occur before this bill is enacted rather than after, and 
with all the discussions that the BLM and the Church have had 
over the past 5 years regarding the land transfer and the 
price, does the BLM have a reasonable idea of how much this 
land is worth?
    Mr. Fulton. No. I think that the valuation of the land will 
be a fairly complicated matter and I would not have any expert 
knowledge on how they would arrive at a valuation other than it 
would be the goal to do a fair market value, but there are 
technical experts inside the BLM who would be charged with 
doing that.
    Mrs. Cubin. It seems to me that--I do not need to tell you 
this, but I want to say it for the record--that it would be 
very difficult to put a price tag on this piece of land because 
there is historical value, value to the Church and obviously 
value to other people, too, who oppose this. There are no 
comparables. So what all should be taken into consideration in 
determining fair market value? It should be the price per acre 
plus the historic value plus archaeological and antiquities 
value. What all should be added into that appraisal so if this 
occurs, we do get everything we should from it?
    Mr. Fulton. Well, there is a realty office within the BLM 
and it would be those individuals who have done land trades, 
land sales, land exchanges in the past who would be tasked with 
arriving at a fair market value. If the bill becomes law, then 
that is exactly what we will do.
    Mrs. Cubin. We have had in our local press an article 
talking about a study that was done by the BLM that criticized 
some of the things that--
    Mr. Fulton. The Park Service. The Park Service.
    Mrs. Cubin. Oh, it was the Park Service. OK. Thank you.
    [Laughter.]
    Mrs. Cubin. By the Park Service that criticized some of the 
changes and some of the upgrades, frankly, because I am here to 
tell you that it certainly still does look like a historic site 
and it is not as if it, in my humble opinion, it certainly 
looks like the integrity of the historical site has been 
preserved.
    But I have to tell you, I had a lot of trouble with the 
Clinton policies, both with BLM and Park Service, so I am not 
sure that I can now use them as my bible in opposing this bill, 
but I would like to know, what was that based on? What 
criticisms were there?
    Ms. Stevenson. Actually, this is something I just learned 
about yesterday, so I have nothing to offer you.
    Mr. Fulton. Madam Chair, I am sorry. I probably should have 
attempted to answer that question on behalf of another bureau 
within the Department of Interior, and I will take a stab at it 
if I could.
    I believe that this report was done sometime in the year 
2000 and it has been available and there has been very little 
public comment on it until this bill was introduced. It simply 
will be an item that the Bureau of Land Management will take a 
look at as we will take a look at all others who wish to 
comment on this matter. It is a BLM issue and the BLM will move 
forward if this bill becomes law and we will take advice or 
comment from any who wish to give it.
    Mrs. Cubin. Last question, when a site like Martin's Cove 
is listed on the National Register, which, as Representative 
Faleomavaega has represented, is a totally different thing than 
people have been talking about, a national historic site, what 
kind of restrictions are there in terms of maintaining and 
restoring the land and the buildings?
    Mr. Fulton. That one is one that the Park Service would 
like to address.
    Mrs. Cubin. OK.
    Ms. Stevenson. There are no restrictions whatsoever, except 
on Federal agencies. There are no restrictions on private 
landowners, and the only restriction on Federal agencies is 
contained in Section 106 of the National Historic Preservation 
Act and that requires Federal agencies to take under 
consideration the effect that the changes that they make or 
propose to make will have on the historic property, in 
consultation with the State and the Advisory Council on 
Historic Preservation.
    Mrs. Cubin. Thank you, Mr. Chairman. My time is expired.
    Mr. Radanovich. Thank you very much, Mrs. Cubin.
    Are there any other questions of the witnesses?
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    In light of Mr. Faleomavaega's question on wineries, I 
think maybe we should put in the record the number of Mormon-
owned wineries on Federal land.
    [Laughter.]
    Mr. Udall of New Mexico. I think Mr. Hansen now would know 
that number. It is probably zero.
    Mr. Radanovich. I would say, though, we found out recently 
that there are wineries in all the 50 States.
    Mr. Udall of New Mexico. Let me just ask a couple of 
questions here. Mr. Fulton, your testimony states that the size 
of the proposed land sale should be ``confined to the smallest 
area compatible with the proper care and management of the 
resources.'' How many acres would be the smallest area, in your 
opinion?
    Mr. Fulton. I would leave that up to the experts in the 
BLM, and if the Committee would like a response to that, I 
could certainly ask the BLM to provide that.
    Mr. Udall of New Mexico. Sure. I would like it. I do not 
know whether the Committee would like it or not. What is the 
size of Martin's Cove itself?
    Mr. Fulton. I think the bill is proposing a 1,600-acre 
transfer.
    Mr. Udall of New Mexico. OK. Is--
    Mr. Fulton. I have not visited this site myself, so--
    Mr. Udall of New Mexico. Is what is considered Martin's 
Cove, is it bigger than that?
    The Chairman. Smaller.
    Mr. Udall of New Mexico. Smaller, OK. Tell me a little 
bit--you just discussed it and I want to explore it in a little 
more depth, the idea of how we do this without setting a 
precedent. I think you said we want to be sure that a precedent 
is not set. I do not quite understand how you do that. I think 
after you do something, people can always argue that it is a 
precedent for doing things in the future. Do you have ideas on 
how to do that?
    Mr. Fulton. I think one of the keys is absolute, unfettered 
public access to a site. A lot of very significant sites, or 
significant to groups of individuals who express a desire to 
take ownership, are doing so from sort of a possessory view of 
the site. So it would not be those groups' goal to offer 
unlimited access to 270 million Americans who all share equally 
in these public lands. That would be a requirement that we 
would place on our support of this bill, and I think that then 
would limit its scope to this particular instance.
    Mr. Udall of New Mexico. Do Native Americans with regard to 
this particular site have any sacred sites in the area or 
anything like that?
    Mr. Fulton. I am not aware of any particular sacred sites 
by Native American groups. The West has a lot of sites 
important to Native Americans.
    Mr. Udall of New Mexico. Just as a closing comment, I note 
that the Ranking Member and Chairman Hansen and Chairman 
Radanovich are all working together on this, and I think that 
is a very hopeful sign, so I intend to keep an open mind and 
listen as the discussion goes on and see if we cannot reach an 
agreement on something. Thank you very much.
    Mr. Fulton. Thank you.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Udall of New Mexico. I would be happy to yield.
    Mr. Faleomavaega. I just want to assure the gentleman that 
in our visit to the site and also in consultations, the LDS 
Church has always welcomed archaeologists for any 
consideration, even among Native American organizations, if 
they want or they feel that there is some importance to the 
culture and religious significance. There is no prohibition in 
that effect, it is my understanding.
    Mr. Udall of New Mexico. Thank you.
    Mr. Radanovich. Thank you. The Chair recognizes Mr. Flake 
from Arizona, welcomes him to the Committee, and asks unanimous 
consent that he be allowed to join members on the dais. With 
that, too, I would like to ask if there are any further 
questions of this panel.
    [No response.]
    Mr. Radanovich. All right. Ms. Stevenson, I am sorry there 
were no questions on your bills. I am sure it was due to your 
fantastic testimony and we appreciate your being here.
    Ms. Stevenson. Thank you.
    Mr. Radanovich. Mr. Fulton, thank you, too, very much for 
speaking on this issue.
    Before we go to the next panel, I do want to turn people's 
attention to the television set there and beg your indulgence 
to view, it will be about 5 minutes, a PBS documentary on the 
history of the Mormon Trail and excerpts in it about Martin's 
Cove. So if we want to run that before we start our next panel.
    [A videotape was shown.]
    Mr. Radanovich. With that, we will call our next panel, 
Bishop David Burton, Presiding Bishop of the Church of Jesus 
Christ of Latter-day Saints from Salt Lake City; President 
Lloyd Larsen, Riverton, Wyoming Stake, Lander, Wyoming; Ms. 
Kitty O'Leary Higgins, Vice President for Public Policy, 
National Trust for Historic Preservation; Mr. Kirk Koepsel, 
Northern Plains Regional Representative of the Sierra Club, 
Wyoming Office in Sheridan, Wyoming; and Mr. Reese Lukei, Jr., 
National Coordinator of the American Discovery Trails Society.
    Ladies and gentlemen, welcome to the Committee. Bishop, 
welcome to the Committee. If you would like to begin your 
testimony, that would be just terrific.

 STATEMENT OF BISHOP H. DAVID BURTON, PRESIDING BISHOP OF THE 
 CHURCH OF JESUS CHRIST OF LATTER-DAY SAINTS, SALT LAKE CITY, 
                              UTAH

    Bishop Burton. Chairman Radanovich and Chairman Hansen and 
members of the Subcommittee, I am H. David Burton and I 
presently serve as the Presiding Bishop of the Church of Jesus 
Christ of Latter-day Saints. In this capacity, I supervise and 
manage all of the physical properties of our worldwide Church 
of over 11 million members. I appreciate the invitation to 
appear before you today and to testify in support of H.R. 4103, 
the Martin's Cove Land Transfer Act.
    I want to thank Chairman Hansen and all other Members of 
Congress who have cosponsored this bill at the request of 
thousands of LDS Church members and nonmembers alike from 
Wyoming. I also want to thank Congresswoman Barbara Cubin of 
Wyoming for agreeing to listen to our interest in protecting, 
preserving, and providing public understanding of what occurred 
at Martin's Cove.
    The story of the Martin and the Willie Handcart Companies 
of Mormon pioneers is one of dedication, determination, and 
death, a story of suffering, of selfless sacrifice, and above 
all, a story of great faith. The courage and sacrifice of those 
marooned pioneers in 1856 and their rescuers is one of the 
great historic events in the American pioneer era.
    My own grandfather was mentioned in the video you have 
seen. My second great-grandfather, as a matter of fact, and my 
second great-grandmother was one of those who were rescued, so 
I have a particular interest in that from a personal 
standpoint.
    From the earliest planning, one of our goals was for the 
Church to obtain in fee the significant ground at Martin's Cove 
from the Federal Government. To that end, the officials of the 
Church's farm and ranch real estate arm visited the Lander 
District Office of the Bureau of Land Management in 1997 to 
propose acquisition of the site. We were told the land could 
not be purchased and that the only possible way to acquire it 
would be to find another site of equal historical value. The 
Church would then acquire that site and trade it for the land 
at Martin's Cove.
    On review of the sites then available, it was obvious that 
few equivalent sites were available. The Immigrant Trail from 
one edge of Wyoming to the other was explored to find 
equivalent sites. Two were identified, the Sixth Crossing of 
the Sweetwater and the Burnt Ranch at the last crossing of the 
Sweetwater. Several other sites were considered, however, none 
of these were considered by the Bureau of Land Management to be 
equivalent.
    Later in 1999, the Church proposed to trade the BLM acre-
for-acre land in the vicinity of the Sixth Crossing and 
conditional public access at both Martin's Cove and the Sixth 
Crossing for the land at Martin's Cove. The proposal for this 
exchange was turned down by the Bureau of Land Management.
    In mid-1996, the Church contracted to acquire the hub-and-
spoke portion of the Sun Ranch--that Ranch was along the 
Sweetwater River--in anticipation of substantial numbers of 
visitors for the 1997 Sesquicentennial Celebration of the first 
Mormon pioneer trek across the plains. A development plan was 
created hurriedly to establish facilities to accommodate 
visitors and to properly interpret the site.
    In 1997, a 5-year cooperative agreement was entered into 
with the Bureau of Land Management which permits the Church 
access from the privately held Sun Ranch properties north into 
Martin's Cove. This agreement provides for historical access 
only, permits no hunting or fishing or other activities 
inappropriate to the historic site.
    On the basis of the cooperative agreement, the BLM provided 
materials and design for the trail into and around the cove. 
The materials were placed and the trail constructed by Church 
volunteers from the Riverton and Casper areas of Wyoming. The 
Bureau of Land Management reviewed and approved the 
interpretive signs in the cove and have been very cooperative 
in the construction of the facilities on their property.
    During the time the Church has had access to the cove, it 
has received annual inspections from the BLM as well as from 
the State Historic Preservation Office and it has received high 
marks. In addition to the trail, the Sun family homestead was 
renovated into a visitors' center to tell the story of Martin's 
Cove site. Visitors are first introduced to the story of the 
trail, the history of the handcart companies, and at the end of 
the tour, there is a short video based on a journal written by 
Heber McBride, who was 13 years old when he came through with 
the Martin Company and found his father frozen to death under a 
wagon.
    Those who wish are then provided handcarts to be pulled 
several miles to the base of the cove. Leaving the handcarts at 
that point, visitors can follow another trail through the cove. 
Upon returning to their handcarts, they are provided yet a 
third trail to the handcart bridge back across the Sweetwater 
crossing where they can imagine the events of the young 
rescuers carrying weakened pioneers across the icy river.
    The central purpose of the Mormon Handcart Visitors' Center 
at Martin's Cove is to provide an opportunity for people to 
know and remember the handcart pioneers who suffered there and 
the men who rescued them. In addition to the visitors' center, 
a vehicle bridge across the Sweetwater River was constructed. 
Parking lots were created, public restrooms installed, and 
wells drilled. The Church has constructed a renovated covered 
barn where groups can hold meetings and escape the weather, if 
necessary. We have also constructed a chapel, a shop, new 
housing for Church volunteers, administrative facilities, and 
ranch operating facilities.
    To better accommodate the public, the Church has developed 
two public campgrounds for youth visitors, accommodating 500 to 
800 each. In addition, we have built an RV campground and a 
family campground. We have also built an RV village for roughly 
30 volunteer couples that staff the visitors' center.
    While these improvements have been costly, they are 
necessary to support the hundreds of thousands of visitors who 
have come to Martin's Cove since the Church opened the 
visitors' center.
    The Church of Jesus Christ of Latter-day Saints has 
significant and valuable experience in handling large numbers 
of public visitors. Last year, across the world, we hosted over 
five million visitors at 15 distinct Church visitors' centers 
and 13 Church historical sites. This figure does not include 
the hundreds of thousands of visitors to Temple Square in Salt 
Lake City.
    All of our visitors' centers are administered by mature 
couples who serve as full-time volunteers without pay. I do not 
believe any other group, including the BLM, would have devoted 
the financial and human resources to establish Martin's Cove as 
a historical destination.
    Mr. Radanovich. Bishop Burton, if I may ask you if you 
could sum up. We are a little bit over the time that we have 
got.
    Bishop Burton. Thank you, Chairman. I conclude with this 
last statement. May all who come here, quoting President 
Hinckley, may all who come here do so with a spirit of 
reverence as they recall the experiences of their forbearers. 
May a spirit of solemnity rest upon them. This is the purpose 
of wanting to obtain Martin's Cove. Thank you.
    Mr. Radanovich. Thank you very much, Bishop.
    [The prepared statement of Bishop Burton follows:]

 Statement of Bishop H. David Burton, Presiding Bishop, The Church of 
            Jesus Christ of Latter-day Saints, on H.R. 4103

Introduction
    Chairman Radanovich, Chairman Hansen and members of the Committee, 
I am Bishop H. David Burton. I serve as the Presiding Bishop for The 
Church of Jesus Christ of Latter-day Saints. In this capacity, under 
the direction of the First Presidency of the Church, I supervise and 
manage all of the physical properties of the worldwide Church of Jesus 
Christ of Latter-day Saints of over eleven million members. I 
appreciate the invitation to appear before this you today to testify in 
support of H. R. 4103, the Martin's Cove Land Transfer Act.
    I want to thank Chairman Hansen and all the other members of 
Congress who have cosponsored this bill. I also want to thank 
Congresswoman Barbara Cubin of Wyoming for agreeing to listen to our 
interest in protecting, preserving and providing public understanding 
of what occurred at Martin's Cove. We are also most grateful for 
Subcommittee field hearing in Casper, Wyoming on May 4.
    In order for to understand why Martin's Cove is such a sacred 
location to the Latter-day Saint people and to our Church, I must tell 
you the saga of the Martin and Willie Handcart companies of Mormon 
pioneers. As shown in the PBS television documentary, ``Trail of 
Hope,'' a portion of which was shown to the Committee this morning, 
this is a story of dedication, determination and death; a story of 
suffering and selfless sacrifice; and above all, a story of great 
faith. The courage and sacrifice of these marooned pioneers in 1856 and 
their rescuers is one of the great heroic stories of the American 
pioneer era.
The Great Western Migration
    Most of the Great Western migration took place during a period of a 
little over twenty years. In that time some 350,000 people came along 
the Oregon, California and Mormon trails. Roughly one-sixth, or over 
60,000, of those going west were members of The Church of Jesus Christ 
of Latter-day Saints. Early Latter-day Saints experienced considerable 
persecution and were driven from place to place before finally building 
a great city on the Mississippi River in Illinois called Nauvoo. It was 
from Nauvoo, after much persecution there, that the first of Mormon 
pioneers started west in 1846. The early migration was mostly by wagon 
although later on some 3,000 poorer emigrants traveled by handcart.
    The Oregon, California and Mormon trails started in the frontier 
cities of the Mid-West, followed the Platte and North Platte rivers 
through Nebraska into Wyoming near present day Casper, then dropped 
down to the Sweetwater River in Wyoming near Independence Rock. Since 
these travelers needed water for their animals and people, it was the 
rivers that dictated their route. About seventy miles west of Martin's 
Cove, near South Pass, at what has come to be known as the Parting of 
the Ways, the various trails split up'some pioneers going to California 
for gold, some to Oregon for free land, and some hoping for a new and 
more prosperous life. The Mormons were following the direction of their 
prophet-leader, Brigham Young, to gather in the Great Salt Lake Valley 
and later settle much of the Intermountain West.
    The early pioneer members of The Church of Jesus Christ of Latter-
day Saints began their trek westward to the Great Basin in the winter 
of 1846, crossing their wagons on the frozen Mississippi even as their 
homes, farms and property were being taken. During the cold winter, the 
Latter-day Saints made their way across Iowa territory to a staging 
ground which they called Winter Quarters, near present-day Council 
Bluffs on the Missouri River. Many were ill prepared and suffered much. 
At Winter Quarters the Latter-day Saints built cabins, planted crops, 
and prepared to make the thousand-mile journey west. The first of the 
group arrived in Salt Lake City during July of 1847.
The Martin and Willie Handcart Companies
    In these migrations, one special story stands out. It is the story 
of the handcart pioneers, poor people with few frontier skills, who 
pushed and pulled handcarts some 1,300 miles between Iowa City and Salt 
Lake City. By 1856, hundreds of new converts to The Church of Jesus 
Christ of Latter-day Saints in the British Isles and Denmark wanted to 
join with the body of the Church in Salt Lake City. Many pioneers 
lacked the means to make the journey without help. To help meet their 
needs, Brigham Young organized the Perpetual Emigration Fund to provide 
money for ship and overland passage for the poor immigrants in return 
for work or repayment after journey's end.
    In addition, Brigham Young proposed that handcarts be used instead 
of costlier covered wagons pulled by a team of oxen. The shallow box on 
the handcart carried supplies, personal belongings and sometimes young 
children. Most handcarts carried a little over a hundred pounds, 
although some loads were heavier. Each traveler was allowed only 17 
pounds of personal belongings including bedding and clothing. There 
would be one oxen supply wagon for every 20 handcarts which carried 
tents, flour, and other provisions, as well as those too sick or unable 
to walk.
    The handcart companies averaged 15 miles per day. Handcarts were 
much less expensive and actually faster than oxen pulled wagons. Four 
or five people were assigned to each handcart. The first of three 
handcart companies sailed in March/April from England, picked up their 
handcarts at the end of the railroad in Iowa and arrived in Salt Lake 
City by early September. It was not an easy 1300-mile trek but they did 
it. Of ten total handcart companies, eight came through safely. Two did 
not.
    The plan for travel was for the people to leave England by boat 
starting in mid-February but not later than mid-April. After arriving 
in the United States it took about five weeks to get to the Missouri 
River. Then it was a three-month trek to Salt Lake via handcarts. That 
schedule would put the travelers into the Salt Lake Valley no later 
than the end of September.
    The Willie and the Martin immigrant companies started late from 
England and arrived in Iowa in mid-summer. Despite warnings about the 
perils of getting a late start, these immigrant pioneers, who had 
already traveled thousands of miles by ship, voted to press on to Utah. 
The Willie Company, with over 400 people left Iowa on July 15, 1856. 
The Martin company, with somewhere between 570 to 620 people, and the 
two trailing wagon trains captained by William Hodgetts and Daniel Hunt 
left about two weeks later.
    These companies endured harrowing circumstances. By the time they 
were in Wyoming it was October. An early snowstorm developed into a 
bitter windswept blizzard and the temperatures dropped to 11 degrees 
below zero with wind chill conditions of from fifty to seventy degrees 
below zero. Oxen were lost in the storms; and even their cattle began 
to die from starvation. Their problems became critical as they were 
making the last crossing of the North Platte River near present day 
Casper. They were short of fuel, food, and adequate clothing. Rain and 
sleet turned to snow and ice. Rations were reduced to only 4 ounces of 
flour per day for adults, half that for children. The Willie Company 
was one week ahead of the Martin Company isolated near Sweetwater 
Station, west of Jeffrey City. The Martin Company was stranded at Red 
Buttes, unable to press forward.
``Bring Them In From the Plains''
    Brigham Young did not know that all these people had started wes so 
late in the season until some returning missionaries, who had passed 
the pioneers on the plains, reported to him on the evening of Saturday, 
October 4, 1856. That was the night before the Church's General 
Conference or assembly. In the General Conference the next morning, 
Brigham Young said, ``The theme of this conference will be the rescue 
of these saints. We must send assistance. We must bring them in from 
the plains.''
    Food and clothing were gathered from among the people who 
themselves had little to spare. Horses, mules and wagons were donated 
and young men left their homes and families to volunteer for the 
rescue. On the morning of October 7, 1856, twenty-two teams'two spans 
to a wagon'started out to rescue the Willie and Martin handcart people. 
By Tuesday, 14 wagons of what would become 200 rescue wagons left the 
city. On October 19, 1856 the rescue party had reached South Pass where 
they camped for relief from the severe storm. However, they had sent 
messengers ahead to notify the handcart companies that help was on the 
way. These messengers met the Willie Company west of Ice Slough. They 
gave them encouragement, and continued to Devil's Gate.
    The Willie Company managed to continue to a location near the Sixth 
Crossing of the Sweetwater where they were joyously met two days later 
by the rescue wagons under the direction of George D. Grant. Grant left 
six wagons with the Willie Company then continued east along the trail 
with his remaining eight wagons. Arriving at Devil's Gate he sent three 
new rescue messengers east along the trail where they finally located 
the Martin Company at the Red Buttes where they were camped following 
their last crossing of the North Platte River near present day Casper. 
They had suffered terribly there in the storm.
    The rescue messengers were able to get the Martin Handcart Company 
and the Hodgetts and Hunt wagon trains moving west along the trail. The 
Martin Handcart Company was met by the rescue wagons at Greasewood 
(Horse) Creek and brought to an abandoned fort at Devil's Gate. Since 
the fort was small and would not accommodate so many, the handcart 
pioneers were moved to a more sheltered area abutting the rocky cliffs 
west of the fort, now called Martin's Cove, where they remained in the 
open for four days and five nights. Before entering the Cove, over 
fifty had died. While in Martin's Cove, many more died. They did their 
best to cover the dead with rocks or bury them in frozen ground that 
was almost impenetrable. You can understand why the Latter-day Saints 
consider Martin's Cove so sacred. About November 12th they filled their 
wagons with the weakest emigrants and moved on. More deaths occurred.
    The further West they went, the more rescue wagons they met and by 
the time they arrived at Ft. Bridger, Wyoming all were in a wagon. By 
late November they arrived in Salt Lake City. Brigham Young told the 
Latter-day Saints that those people would be helped better ``with a 
cooked potato with a little salt and a little butter than all your 
prayers. Go and take them into your homes and nurse them back to 
health.'' And they did.
    There were many heroic efforts connected with the rescue effort. 
Several young men from Salt Lake City spent much of one day wading back 
and forth across the Sweetwater river carrying people through the icy 
waters to get them into Martin's Cove.
    Ephraim Hanks started out on the rescue trail alone, killed a 
buffalo shortly before reaching the Martin Company at the Cove, and was 
able to bring them badly needed food. Then he used his considerable 
frontier medical skills and a pair of scissors to treat the people's 
frost bitten and frozen limbs.
    Although the exact number of those who perished cannot be precisely 
known, most historians agree that during the overland portion of their 
journey, 29 members of the Hunt and Hodgetts wagon companies died. The 
Willie Handcart Company lost 69 and the Martin Company suffered close 
to 170 deaths.
    Some were critical of the decision of the handcart companies to 
come west so late in the year. Many years later, Francis Webster then 
an old man, one who had made the trip, declared, ``I was in that 
company and my wife was in it--- we suffered beyond anything you can 
imagine and many died of exposure and starvation---we became acquainted 
with God in our extremities.'' He also told of looking ahead to see a 
spot on the trail and saying, ``I can pull the handcart only that 
far.'' Then when he got to that point his cart started pushing him. It 
was then that he said he knew God and angels were helping push. Then he 
said, ``Was I sorry that I chose to come by handcart? No, neither then 
nor one moment of my life since. The price we paid to become acquainted 
with God was a privilege to pay and I am thankful that I was privileged 
to come--in the Martin Handcart Company.''
    The individual stories told from journals of the survivors and the 
roughly 200 who died from their ordeal are at once tragic, touching and 
triumphant. From that time to this, members of The Church of Jesus 
Christ of Latter-day Saints have found inspiration from the stories of 
faith, dedication, sacrifice and suffering of the Willie and Martin 
Handcart companies in Wyoming.
Purchase of the Sun Ranch
    In mid-1996 the Church contracted to acquire the Hub and Spoke 
portion of the Sun Ranch along the Sweetwater River. May I take a 
moment to tell you a little bit about this historic ranch and give you 
some background about why and how we came to own it. The ranch begins 
at approximately Devils Gate and extends five to six miles west along 
the river. The strategic value of the ranch is its access to the sacred 
ground of Martin's Cove. The Oregon, California, Mormon and Pony 
Express trails go right through the heart of this ranch. It remains a 
working cattle ranch today.
    An easement from the Sun family to the historical sites of the Hub 
and Spoke ranch permitted the Church early access to the ranch pending 
the trade by the Sun Family for ranching properties elsewhere. In 
anticipation of substantial numbers of visitors for the 1997 
Sesquicentennial Celebration of the first Mormon Pioneer trek across 
the plains, a development plan was created hurriedly to establish 
facilities to accommodate visitors and to properly interpret the site.
BLM Cooperative Agreement
    In 1997, a five-year cooperative agreement was entered into with 
the BLM, which permits the Church access from the privately held Sun 
Ranch properties north into Martin's Cove. This agreement provides for 
``historical'' access only, permits no hunting or fishing or other 
activities inappropriate to the historic site.
    On the basis of the cooperative agreement, the BLM provided 
materials and design for a trail into and around the Coves. The 
materials were placed and the trail constructed by Church volunteers 
from the Riverton and Casper areas of Wyoming. The BLM reviewed and 
approved the interpretive signs in the Cove and have been very 
cooperative in the construction of the facilities on their property.
    During the time the Church has had access to the Cove, it has 
received annual inspections from the BLM as well as from the State 
Historic Preservation Office and it has received high marks. The BLM 
has been cooperative in permitting treks across its land from Sixth 
Crossing west to Rock Creek or segments thereof. On behalf of The 
Church of Jesus Christ of Latter-day Saints I want to thank the BLM 
officials in Wyoming with whom we have worked these past several years. 
They are capable, dedicated professionals who have been excellent to 
work with.
Mormon Handcart Visitors Center at Martin's Cove
    In addition to the trail, the Sun Family homestead was renovated 
into a Visitors Center to tell the story of the Martin's Cove site. 
Visitors are first introduced to the story of the trail, the history of 
the handcart companies and at the end of the tour there is a short 
video based on a journal written by Heber McBride who was 13 years old 
when he came through with the Martin Company and found his father 
frozen to death under a wagon. Those who wish are then provided 
handcarts to be pulled several miles to the base of the Cove. Leaving 
the handcarts at that point, visitors can follow another trail through 
the Cove. Upon returning to their handcarts they are provided yet 
another trail to a handcart bridge back across the Sweetwater crossing 
where they can imagine the events of young rescuers carrying weakened 
pioneers across the icy river.
    The Church's Visitors' Center is located in what once was the 
original ranch house. This historic ranch was homesteaded in 1872 by 
Tom Sun, not many years after the era of wagon trains and handcarts 
ended. After nearly a year of renovation and restoration, the Sun Ranch 
house became the Mormon Handcart Visitors Center at Martin's Cove. 
Today visitors from throughout the country can come to learn about the 
history of this spot, and feel the spirit of the pioneers who 
struggled, perished, and were rescued there.
    Because the Sun family once lived in and used the old ranch house, 
we kept a room (which we call the Sun room) as something of a family 
museum. The Church has maintained their tradition and we continue to 
display items which once belonged to the Sun family and other area 
ranchers in the Sun room and in the log schoolhouse next door. Nellie 
Sun, the wife of Tom Sun II, had a unique fireplace built using her 
rock collection as its basis. It contains a lot of petrified wood and 
Indian artifacts such as grinding stones and hobble stones. The rifle 
above the mantle was a gift to Tom Sun, Sr. from his good friend 
Buffalo Bill who spent much time here.
    The central purpose of the Mormon Handcart Visitors Center at 
Martin's Cove is to provide an opportunity for people to know and 
remember the handcart pioneers who suffered there and the men who 
rescued them. This Visitors' Center tells the story of these heroic 
people. During the tour visitors may read the stories and quotes from 
the people who made this journey. Several artists have captured the 
story of these people, and their struggles and of the rescue effort. 
Listed there are the names of rescuers followed by the names and ages 
of those people of the Martin and Willie Handcart companies and the 
Hodgetts and Hunt wagon companies. A wall contains names in gold to 
identify people who died somewhere along the trail. Following the tour, 
most visitors especially youth groups, pull one of over a hundred 
handcarts especially built to pull along the trail to the edge of 
Martin's Cove.
    In addition to the Visitors' Center, a vehicle bridge across the 
Sweetwater River was constructed, parking lots created, public 
restrooms installed, and wells drilled. The Church has constructed a 
renovated, covered barn where groups can hold meetings and escape the 
weather if necessary. We have also constructed a chapel, a shop, new 
housing for Church volunteers, administrative facilities, and ranch 
operating facilities.
    To better accommodate the public, The Church of Jesus Christ of 
Latter-day Saints has developed two public campgrounds for youth 
visitors accommodating 500-800 each. In addition, we have built an RV 
campground, and a family campground. We have also built an RV village 
for roughly thirty volunteer couples that staff the Visitors' Center.
    While these improvements have been costly, they are necessary to 
support the thousands of visitors who have come to Martin's Cove since 
the Church opened the Visitors' Center. I do not believe any other 
group, including the BLM, would have devoted the financial and human 
resources we have to establish Martin's Cove as the significant 
historical destination it has become. Remarkably, since the opening of 
the Martin's Cove Visitors' Center in 1997, we have welcomed over a 
quarter of a million visitors to this remote location in Wyoming. We 
estimate that about 91% of these visitors are our own Church members.
    The Church of Jesus Christ of Latter-day Saints has significant and 
valuable experience in handling large numbers of public visitors. So 
far this year alone, across the world, we have hosted over 5 million 
visitors at 15 distinct Church Visitors' Centers and 13 Church historic 
sites. All of our Visitors' Centers are administered by mature couples 
that serve as fulltime volunteers without pay.
    The facilities at Martin's Cove were dedicated by Church President 
Gordon B. Hinckley on May 3, 1997 with approximately 10,000 visitors in 
attendance. In his dedicatory prayer, President Hinckley said; ``I 
dedicate this Mormon Handcart Visitor's Center as a place where may be 
taught the history of the past. May the tale of the great migration of 
people be here remembered and spoken of with love. May all who come 
here do so with a spirit of reverence, as they recall the experiences 
of their forebears may a spirit of solemnity rest upon them.'' 
Following the dedication of the Visitors' Center, officials of the BLM 
dedicated the trail into the Cove.
Unsuccessful attempts to acquire Martin's Cove via Land Exchange
    From earliest planning President Hinckley has expressed a goal for 
the Church to obtain in fee the sacred ground in Martin's Cove from the 
Federal Government. To that end, the officials from the Church's farm 
and ranch real estate arm, visited the Lander District Office of the 
BLM in 1997 to propose acquisition of the site. We were told that land 
could not be purchased and that the only possible way to acquire it 
would be to find another site of ``equal historical value'' to be 
acquired by the Church and traded for the land in Martin's Cove.
    On review of the sites then available, it was obvious that few 
equivalent sites were available. The emigrant trail from one edge of 
Wyoming to the other was explored to find equivalent sites. Two were 
identified: the Sixth Crossing of the Sweetwater and the Burnt Ranch at 
the last crossing of the Sweetwater. Several other sites were 
considered however, none of these were considered by the BLM to be 
equivalent.
    After several months of negotiations, the ranch at Sixth Crossing 
was acquired from Tom Abernathy by exchange. The property is 
approximately 5,000 acres including 3,000 acres in the Sweetwater 
Valley from Highway 287 at Sweetwater Station northwest along the 
river. Almost all emigrants going to California, Oregon and Utah 
crossed the Sweetwater at this site. In the vicinity of this site, the 
Willie Handcart Company was rescued in 1856 by the party sent out from 
Salt Lake City by Brigham Young.
    Later in 1999, the Church proposed to trade the BLM, acre for acre, 
land in the vicinity of Sixth Crossing and conditional public access at 
both Martin's Cove and Sixth Crossing for the land at Martin's Cove. 
The proposal for this exchange was turned down by the BLM. While the 
BLM has expressed interest in exchanging Martin's Cove for the Sixth 
Crossing site, understandably, the Church considers this Sixth Crossing 
site equally significant to our religious heritage. We wish to retain 
and develop it as another location where the public can interpret and 
appreciate the historical events which transpired there. In 2000, the 
Church made an offer to the owners of Burnt Ranch to acquire their 
place and after lengthy discussions, the offer was turned down. After 
lengthy discussions, our Wyoming Church members sought help from their 
congressional representatives.
H.R. 4103- The Martin's Cove Land Transfer Act
    I again want to thank Rep. Hansen and the other members of the 
Congress for responding to the request by thousands of Wyoming Church 
members for assistance in drafting a bill to permit The Church of Jesus 
Christ of Latter-day Saints to purchase the sacred ground of Martin's 
Cove directly from the government for fair market value. H. R. 4103 
contains important safeguards for the public.
    The Church will be required to pay fair market value calculated on 
the historic value of Martin's Cove. Since the Church has been very 
active in acquiring other historic sites in Wyoming including the Sixth 
Crossing Site and Rock Creek Hollow, I can assure you the price we will 
pay for Martin's Cove will exceed what most Wyoming ranchers would pay 
for BLM rangeland. The Church bought the Sun Ranch, not for its value 
as a cattle ranch, not for hunting and fishing, or for mountain biking 
or rock climbing; but rather to obtain access so the public can walk 
into Martin's Cove, a site that is both historic and sacred. The Martin 
and Willie episode was probably the most tragic, yet at the same time 
the most heroic single event in Mormon pioneer experience of the 
Nineteenth Century. It is a story that deserves telling and retelling. 
That is our purpose in wanting to acquire Martin's Cove.
                                 ______
                                 
    Mr. Radanovich. Everybody should know, if you can keep to 
the 5-minute clock, your written testimony will be included in 
the record, so you will not be missing anything by not being 
able to include it all in that 5 minutes.
    Next is President Lloyd Larsen of the Riverton, Wyoming 
Stake. Mr. Larsen, welcome, and please begin your testimony.

STATEMENT OF LLOYD CHARLES LARSEN, PRESIDENT, RIVERTON, WYOMING 
  STAKE, CHURCH OF JESUS CHRIST OF LATTER-DAY SAINTS, LANDER, 
                            WYOMING

    Mr. Larsen. Mr. Chairman and members of the Committee, 
thank you. My name is Lloyd Larsen. I am from Lander, Wyoming, 
and I am honored and pleased to be before this distinguished 
Committee today.
    I am the co-owner of Triple L, Incorporated. It is a 
construction and general contracting firm that serves the 
petroleum industry in Wyoming. I am also President of the 
Riverton, Wyoming Stake of the Church of Jesus Christ of 
Latter-day Saints. We have 2,587 members of the Church in ten 
different congregations throughout Fremont County, Wyoming. 
This stake has been involved in great detail over the last 
decade in the identification, restoration, and preservation of 
sites along the Mormon Trail.
    I am pleased today to be able to present to this 
Subcommittee petitions of nearly 6,000 members of the LDS faith 
in Wyoming in favor of legislation to convey Martin's Cove to 
the Church. These petitions are from Wyoming citizens, who are 
all of voting age, from 101 different communities throughout 
the State. They reflect strong support for the Wyoming LDS 
community for this legislation. So on behalf of thousands of 
LDS members in Wyoming, we would like to thank House Resources 
Chairman Jim Hansen for providing the legislative vehicle to 
enable Congress to review the ownership issues of Martin's 
Cove.
    We would also like to express our deep appreciation to our 
lone Representative, Barbara Cubin, for insisting that a public 
hearing take place on this bill in Wyoming. That hearing, as 
you well know, took place on May 4 in Casper. It was evident 
that the large majority of those attending that meeting were in 
support of this legislation. It was also evident from the 
comments made by the general public, as allowed in this 
Committee hearing, that the majority feels that this 
legislation is, indeed, good for the State of Wyoming.
    Mr. Chairman, speaking for myself, I am pleased with the 
direction and the concept of this bill. I would also welcome 
legislative changes, however, that would place the proceeds 
from the sale of this property back into the State of Wyoming. 
I would also be pleased to see legislative action that ensures 
public access into the cove and that would also address other 
issues.
    Mr. Chairman, when we came here yesterday, I brought my 17-
year-old son, Jared, with me on this trip. This being his first 
trip to Washington, D.C., we tried to take in some of the 
sights yesterday afternoon. We were the most touched as we went 
into Arlington National Cemetery. The signs there state that we 
were on hallowed ground. We felt that, and rightfully so. It 
was made hallowed by men and women who gave their lives 
protecting the freedom and the civil rights enjoyed in this 
country.
    Martin's Cove on High Plains, Wyoming, is also hallowed 
ground, made hallowed by people who gave their lives, committed 
to a religion that they believed in, and in pursuit of the 
freedom that is the cornerstone of this nation. This event is 
no doubt American history, but these pioneers personally left 
to the members of this Church a unique legacy, a legacy of 
commitment, determination, and selfless compassion.
    I do not believe that anyone has been or will be as 
committed to the preservation of Martin's Cove as the Church of 
Jesus Christ of Latter-day Saints. It has been demonstrated 
from the thousands of hours of labor, the donation of equipment 
and expertise which the members of the Church donate annually 
to help the people from all around the world have a unique 
experience at Martin's Cove, that we are committed to the long-
term success of this site, not because it is our job, but 
because it is our stewardship and it is our heritage. Thank 
you.
    Mr. Radanovich. Thank you very much, Mr. Larsen.
    [The prepared statement of Mr. Larsen follows:]

           Statement of Lloyd Charles Larsen, Lander, Wyoming

    Mr. Chairman, and members of the committee: I am Lloyd Larsen of 
Lander, Wyoming. I am honored and pleased to appear before this 
distinguished committee today.
    I am the co-owner of Triple L. Inc., a construction and general 
contracting business that primarily serves the petroleum industry with 
20 employees. I am also the President of the Riverton, Wyoming Stake of 
The Church of Jesus Christ of Latter-day Saints (LDS). There are 2587 
members of our faith in this stake, located in 10 different 
congregations throughout Fremont County.
    I am pleased to present to the subcommittee petitions from nearly 
6,000 members of the LDS faith in Wyoming in favor of legislation to 
convey Martin's Cove to the Church. These petitions are from Wyoming 
citizens who are all of voting age from 101 communities throughout the 
state. They reflect the strong support of the Wyoming LDS community for 
this legislation. And so, on behalf of thousands of LDS Church members, 
we thank House Resources Chairman Jim Hansen for providing a 
legislative vehicle to enable the congress to review the ownership 
issue of Martin's Cove.
    We also join in expressing appreciation to Representative Cubin for 
insisting that public hearings on the bill take place in Wyoming. 
Speaking for myself, while I am pleased with the direction and concept 
of this bill, I would also welcome legislative changes that would keep 
the proceeds of the Martin's Cove sale in Wyoming, that ensure the 
public access to the Cove, and that take into account other views.
    The intent of this testimony is to try and help the hearing 
committee understand the sacrifice of time, labor, equipment and money, 
that has generously been donated by the citizen's of this great State 
who are members of The Church of Jesus Christ of Latter-day Saints in 
the development of Mormon Handcart Visitors Center (``Visitor's 
Center'') which includes the development of Martin's Cove (``Cove'') so 
that the public could have access to this site. I would also like to 
inform the committee of the efforts of the Church to identify, research 
and acquire other lands that have historic value that could be traded 
to the BLM for Martin's Cove.
    For five years prior to the Church's purchase of the Sun Ranch 
members of the Church living in the geographic area surrounding 
Martin's Cove had been involved in a project that required researching 
the names and events associated with the Martin and Willie Handcart 
Companies. In that process we were able to obtain copies of journals 
that had been written by the handcart pioneers, or their descendants. 
We not only became acquainted with the events surrounding the saga of 
the Willie and Martin Handcart Companies, we come to understand the 
spirit, human kindness, compassion, stamina, character, and sacrifice 
of those handcarts pioneers. We also come to understand to some degree 
the voluntary sacrifice, courage, character, and compassion of those 
who came to rescue the stranded handcart companies. As we came to know 
these people, a bonding took place. Many members of the LDS Church in 
Wyoming are descendants of these pioneers who crossed the plains, and 
they have come to recognize the sacrifice their forefathers made to 
believe and worship the way they wanted. Other LDS citizens in the 
State found that they could relate to the sacrifices of the handcart 
pioneers because, like these early pioneers they too made sacrifices to 
embrace this religion.
    Because of this relationship the members of the Church were excited 
whenever an opportunity arose that allowed them to eulogize the 
handcart pioneers. In 1991 members of the Church here in Wyoming 
erected three monuments along the Oregon/Mormon trail dedicated to the 
members of the Martin and Willie Handcart Companies. The time, 
equipment, and materials for the casting of the bronze plaques, 
building the interior structure of the monuments, hauling rock from a 
BLM quarry in LaBarge, Wyoming 200 miles away, and the masonry work on 
the plaques were all donated.
    We were thrilled when we learned that the negotiations for the 
acquisition of the Sun Ranch had been successful in the fall of 1996. 
Up to this point access into the Cove had been limited because you had 
to drive across private land prior to accessing the public land where 
the Cove is. After the Church purchased the ranch, a meeting was held 
at the old Sun ranch house to determine how we could make this property 
an interpretive site that would be conducive to the history of the 
handcart legacy, and maintain the influence of the Sun family who the 
property was purchased from. At this same meeting it was also noted 
that 1997 was the sesquicentennial of the vanguard company of Mormon 
pioneers crossing the plains and entering the Salt Lake valley. Because 
of this historic celebration it was decided that every effort should be 
made to make the handcart historic site accessible by May of 1997.
    In order to have the area ready for visitors a number of things had 
to be done, which included:
     1. The bridge across the Sweetwater River needed to be replaced. 
The existing bridge was an old railroad car that was too narrow. This 
bridge had also been set too close to the river and would sometimes get 
covered with water when the river flooded.
     2. Some sort of visitors center needed to be created to tell the 
story of the handcart pioneers and of the Sun family.
     3. A parking lot needed to be made.
     4. There weren't any public restrooms.
     5. With the ranch being there for many decades, there was need to 
``clean up, pick up, paint up, and fix up.''
     6. We needed to establish more water sources for drinking water. 
Water wells needed to be drilled.
     7. The access road from the highway into the visitor's area 
needed to be improved.
     8. A walking trail needed to be designed and constructed from the 
visitor's center into Martin's Cove.
     9. A footbridge needed to be placed over the Sweetwater River up 
closer to the Cove.
    10. Interpretive signs needed to be designed, constructed, and 
installed along the trail to help people better understand the events 
in the area.
    11. Campgrounds with water and restrooms needed to be established 
to accommodate those groups and individuals that wanted to camp in the 
area.
    12. A picnic area around the Visitor's Center would be needed for 
visitors. It was anticipated that because the closest town of any size 
was 50 miles away, many visitors would be bringing their lunches with 
them.
    This meeting was held in the middle of September, and it was 
determined that we should be ready for visitors on May 1st, which gave 
us seven and a half months to be ready. The biggest obstacles were the 
coming on of winter and labor. When the members around Wyoming found 
out that there was a need for help the response was incredible.
    It was decided that the historic ranch house which was in a sad 
state of repair should be repaired and made into the visitors center 
which would not only protect the inherent atmosphere of the ranch, it 
would also help establish a setting for the visitors. Volunteers who 
were familiar with the building trades removed the old floor and 
excavated under the bottom log of the structure by hand. They leveled 
the walls and then poured a new concrete floor. Where the logs had 
rotted out they were replaced with other logs salvaged from other 
demolition.
    The bridge over the Sweetwater River was unique. Members from the 
Riverton area were asked if they could build a bridge. They answered 
yes, and were given the assignment to build it. In reality none of them 
had ever built a bridge before. The existing bridge was an old railroad 
car that was 8 ft. wide and 90 feet long. They decided to try and find 
another railroad car with the intentions of putting the two together 
side by side. A civil engineer in Casper who was a member of the Church 
found out about the project and offered his services. Another railroad 
car was found in Oregon and shipped to the site. Both railroad cars had 
been in wrecks and were no longer straight and true. It was decided 
that pilings should be driven into the ground on both sides of the 
river for the railroad cars to set on. The pilings were driven and the 
cars set with an additional space between them to get the desired 
width. There were several members that were welders who volunteered 
their time to repair the damaged railcars and to join the two cars 
together with structural steel. Some of these men took their vacation 
time to work 12-14 hours a day on the bridge throughout the month of 
October and part of November. It gets cold in Wyoming during those 
months. In addition to the welders there were orthodontists, grandmas, 
housewives and school age children who would show up to do whatever 
they could to make sure the bridge was completed. Some had so much 
clothing on to stay warm that they had a hard time moving around. 
Because the new bridge was set at a higher elevation than the old 
bridge, new approaches had to be made, which took over one thousand 
yards of dirt and gravel. A businessman in Casper who sells 
construction equipment heard that the approaches were being 
constructed. He called and inquired what equipment was being used and 
what was needed. The next day he sent out a large rubber tired loader, 
a compactor, and a motor grader all to be used free of charge. The 
motor grader and compactor were left there until May to be used as 
needed. A lot of people were needed to help put the planking on the 
bridge. The turnout was so good that there were more people than was 
needed. A group of women who had come to assist with the planking 
wanted to know what else could be done. They were pointed to a pile of 
rocks, which needed to be carried underneath the bridge and placed 
around the bridge pilings to help prevent erosion. There were 15 yards 
of rocks in that pile all weighing between five and ten pounds each. 
That group of women, one of whom was pregnant, carried the whole 
fifteen yards of rock by hand under the bridge, and placed them around 
the pilings. Thousands of hours of labor and equipment went into the 
building of this bridge so that all who wanted access into the Cove 
would have the ability to cross the river in a manner more favorable 
than the handcart pioneers. The civil engineer who helped on the bridge 
estimated the cost of the bridge with all that was done would have 
exceeded $200,000.00.
    The Church expressed to the Bureau of Land Management (BLM) a 
desire to develop an access into the actual Cove where the Martin 
Handcart Company camped. The Bureau of Land Management accepted the 
opportunity to develop the site, but didn't have the funds or the 
manpower at that time to accomplish all that needed to be done. The BLM 
developed and provided a blueprint for an interpretive trail that 
started near the Visitor's Center and went across Church owned 
property, to Federal land. Once the trail was on Federal land it went 
up into the Cove, from the Cove it then back onto Church property 
ending up back at the visitor's center. The total distance of trail 
that needed to be built was over 2.5 miles. 1.25 miles of the trail was 
to be built on Federal land. An archeological study needed to be 
conducted on the BLM land. Again the BLM didn't have the funds or the 
manpower to do the study at that time. The Church funded the study. 
Brigham Young University's archeology department came and identified 
two archeological sites. It was decided by the BLM that the trail could 
be constructed to the Cove without damaging the integrity of the 
archeological sites. The Church and the BLM built the portion of the 
trail that was on Church land with the BLM providing the materials and 
some equipment, the Church provided labor and equipment. When the trail 
got onto Federal land the trail became a narrow walking path. The 
design of the trail required that a geo-tech material be laid down 
where the tail was going to be and then gravel placed over it to a 
depth of two to three inches. Landscaping timbers were to be placed 
along the edges of the trail to keep the gravel in place. Again the BLM 
provided the materials but didn't have the labor resources. The members 
of the Church volunteered to provide labor and equipment for the task 
of building the trail. Men, women, and children of all ages spent much 
of late March and early April laying the geo-tech material on the 
trail, hauling the gravel and installing the landscaping ties. The 
trail was too narrow for dump trucks to drive on in order to spread 
gravel on the trail, so the volunteers brought their ATV's and hooked 
small garden trailers to them and hauled the gravel on to the trail one 
quarter of a yard at a time. A majority of the high school and jr. high 
school students that were volunteers spent their spring vacation that 
year building a trail that would allow all who desired, an opportunity 
to walk into Martin's Cove. The BLM recorded that an excess of 7,000 
man-hours of labor were donated in the construction of that trail.
    After the trail was completed the Church researched and designed 
information that could be placed on interpretive signs for people to 
read as they went into the cove. These signs tell the story of the 
Martin Handcart Company. They had the signs made and installed them 
along the trail.
    Pinedale, Wyoming, is at least 240 miles from Martin's Cove. It is 
a rural community, where ranching, timber, and minerals are the 
backbone of the economy. When the members of the Church in that 
community found out about all that was going on at Martin's Cove, they 
wanted to be a part of it. When asked if they could build picnic 
tables, the Pinedale people volunteered for the job. They went back to 
Pinedale where one of the individuals owns a sawmill. They cut the 
lumber from native logs and made picnic tables that will hold a truck 
up. They scheduled the delivery of the tables to the Visitor's Center 
on the day when they knew that there was a lot of work scheduled to be 
going on around the Visitor's Center. They left their homes in Pinedale 
at 4:00 a.m. so that they could get to the visitor's center by 8:00 
a.m. The left early in order to deliver the tables and have enough time 
left to work a full day. They set the tables and then found that the 
new public restrooms constructed by the Church was supposed to have log 
siding put on it which had been made from the logs of an old barn. They 
along with members from Dubois, and Lander who also had experience 
working with logs made sure that the installation of the log siding on 
the restrooms was completely finished that day. They left on the four 
and a half drive home that night knowing that they had made a 
contribution to the comfort of those that would come to visit Martin'' 
Cove.
    The examples that I have given of the efforts made by the members 
of this Church are intended to illustrate the relationship that we have 
with the handcart pioneers, because of the legacy that they left 
behind. All of the tasks that have been identified were completed in 
time for the dedication of the Visitor's Center on May 3, 1997. We here 
in Wyoming want to preserve and protect this site for generations to 
come. It is a place where all that are residents of Wyoming and all who 
are visiting can come to learn about this important event in the 
history of the Church and the history of the west. It is a place where 
we can learn a little more about who we are.
    After the acquisition of the Sun Ranch, Church representatives 
started negotiating with the BLM it an effort to trade other lands the 
Church owned for the land Martin's Cove was at. Initially it was 
thought that we could exchange some other deeded land on the ranch for 
the Cove. The BLM told us that a piece of property that was as 
historically significant as Martin's Cove would have to be found, 
evaluated, and agreed upon before a trade could take place. The Church 
had a representative travel along the Oregon/Mormon trail across the 
entire state of Wyoming looking for property that was historically 
significant. Once those properties were found an inquiry was made to 
see if the properties were for sale. Three properties were located with 
the possibility of meeting the requirements, and that the current 
owners were willing to sale.
    The first site identified was for sale, but not at a price that we 
felt was reasonable. Negotiations with the owner were conducted over a 
substantial period of time without reasonable terms being reached.
    The second site was a section of property on the Sweetwater River 
known as 6th Crossing. This is an area where all pioneers crossing on 
the Mormon, California, and Oregon trails crossed the river for the 6th 
time. This area is particularly significant in the history of the LDS 
Church because of the events that involved the Willie Handcart Company, 
which got caught in the same winter storm as the Martin Company. This 
property also contains a section of the trail known as the Seminoe 
Cutoff. The Seminoe Cutoff was an alternative route around some of the 
rougher portions of the trail going over South Pass. The Church was 
able to purchase this property. The Church wanted to keep the portion 
of the property at 6th Crossing because it has a comparable importance 
to Martin's Cove. The Church did however offer the Seminoe Cutoff and a 
permanent easement into 6th Crossing for access to the trail as it 
crosses over the Sweetwater River. The BLM declined this offer 
indicating that it didn't ``meet the test''.
    The third site identified was a piece of property that the BLM was 
interested in, and the owner was initially interested in selling the 
property. The owner however decided against the sale in favor of 
keeping it for personal use.
    After we reevaluated our situation, it was our judgment that 
further comparable sites did not exist. We approached the BLM 
representatives to inquire if the knew of any other sites that they 
would be interested in. They indicated that they weren't aware of any 
at that time. It was at this point that we entertained the option of 
pursuing legislative avenues. The BLM representatives were the first 
ones that we informed of this intention. This was done in an effort to 
be forthright in our dealings with them.
    Mr. Chairman, this concludes my testimony today. I would be please 
to respond to questions you may have.
                                 ______
                                 
    Mr. Radanovich. We now turn our attention to Ms. Kitty 
O'Leary Higgins, who is Vice President of Public Policy for the 
National Trust for Historic Preservation. Ms. O'Leary Higgins, 
welcome to the Committee. Please begin your testimony.H.R. 4103

 STATEMENT OF KITTY O'LEARY HIGGINS, VICE PRESIDENT FOR PUBLIC 
 POLICY, NATIONAL TRUST FOR HISTORIC PRESERVATION, WASHINGTON, 
                              D.C.

    Ms. Higgins. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify. I represent the National Trust for 
Historic Preservation and the Trust very much understands the 
historic significance of Martin's Cove and the importance of 
this site to the Mormon Church and its members and, indeed, to 
all Americans.
    The historic importance of Martin's Cove and the 
surrounding areas have been recognized when the site was listed 
on the National Register of Historic Places. This area is also 
part of the National Historic Trails Program because of the 
California, Oregon, Mormon, and Pony Express Trails that pass 
very near Martin's Cove.
    Over the years, Congress has enacted a large body of 
Federal law to protect these important places. Included in that 
body of law is the National Historic Preservation Act, and 
indeed, the Federal Land Policy and Management Act, which 
governs BLM, precludes the sale of any land that is included in 
the national system of trails.
    As the Chairman noted, land transfers occur regularly, but 
these transfers are worked out in accordance with the 
appropriate body of Federal law and regulations in order that 
important historic places will always be protected, regardless 
of who owns the land.
    The National Trust is concerned that unless these 
protections continue to apply to Martin's Cove and the 
surrounding area, there is no assurance that these important 
historic resources will be fully identified and protected and 
that public access will be fully guaranteed. But, Mr. Chairman, 
there are ways to pursue the goals of this legislation and 
provide the necessary protections.
    We have two suggestions that we would like to make today. 
One is what we would call a co-stewardship agreement. That is 
that a cooperative agreement would be worked out between the 
BLM and the LDS Church, much along the lines of what has 
already been worked out with the Sun Ranch. The land would 
continue to be owned in this case by the Federal Government, 
but would be managed by the LDS Church and all the Federal 
protections would continue to apply.
    Or, if the land is to be transferred, as this bill would 
authorize, we would urge that the bill be amended to make clear 
that all the Federal protections that now apply would continue 
to apply. The new owner, the LDS Church, would then be 
responsible for carrying out these laws.
    I would point out a recent example where this has, in fact, 
been done. I think it was in the year 2000 that Title VI of the 
Water Resources Development Act authorized the transfer of over 
300,000 acres from the Corps of Engineers to the State of South 
Dakota. Within that legislation, there was provision as part of 
the transfer that all of the appropriate Federal laws would 
continue to apply, and in this case, the State of South Dakota 
would be the responsible party for carrying out that 
legislation.
    If the transfer goes forward, we would also urge a full 
survey to ensure that all of the important historic and 
cultural resources that are contained within this acreage are 
identified and that this survey be completed before the 
transfer is completed.
    Finally, that a management plan be worked out with the new 
owners and the BLM to ensure public access and to ensure that 
the appropriate stewardship measures are taken into the future. 
Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you.
    [The prepared statement of Ms. Higgins follows:]

Statement of Kathryn Higgins, Vice President of Public Policy, National 
             Trust for Historic Preservation, on H.R. 4103

    Mr. Chairman and Members of the Subcommittee, on behalf of the 
250,000 members of the National Trust for Historic Preservation, I 
would like to thank you for the opportunity to testify on H.R. 4103, 
the ``Martin's Cove Land Transfer Act.'' It is my hope that my 
testimony today will clarify and expound upon the potential impact that 
H.R. 4103 could have on Federal protections currently afforded to 
historic and cultural resources on public lands, which could be 
jeopardized once those lands are transferred to a private entity. H.R. 
4103 proposes such a transfer of 1,640 acres of historically 
significant land to a private entity--the Church of Jesus Christ of 
Latter-day Saints in Natrona County, Wyoming.
    For the last 26 years, the Federal Land Policy and Management Act 
(FLPMA) has governed the disposition of public land tracts but has 
explicitly excepted lands that are of national significance--
specifically units of the National Wilderness Preservation System, the 
National Wild and Scenic Rivers System, and the National System of 
Trails. In addition, the National Historic Preservation Act of 1966 and 
the National Environmental Policy Act of 1969 require that Federal 
agencies take into account the impact of their actions prior to any 
transfer of public lands that include historic and cultural resources. 
The Martin's Cove land tract proposed for sale intersects portions of 
the National Historic Trails System which includes segments of the 
California, Oregon, Mormon and Pony Express Trails. The National Park 
Service's Comprehensive Plan/EIS of November 1999 has designated the 
portions of these trails, which are located in the proposed Martin's 
Cove tract, as containing ``high potential segment'' as defined by the 
National Trails Systems Act of 1968. This means that these areas 
undoubtedly contain a large number of archaeological and cultural 
resources associated both with the pioneer migration and the Native 
American presence on the land. We believe that the transfer and sale of 
the Martin's Cove tract would be unprecedented and in contravention of 
Congress' intent in enacting these laws, which have protected public 
lands for a generation.
    We understand that land is often transferred out of Federal 
ownership; in fact the Federal Land Policy and Management Act (FLPMA) 
sets forth procedures for the disposition of such lands. However, the 
law clearly states that if BLM were to make this transfer under its own 
authority, it would be required to ensure that protections for historic 
and cultural resources were in place. In addition, FLPMA clearly states 
that land within units of the National Wilderness Prevention System, 
National Wild and Scenic Rivers Systems, and National System of Trails 
should not be transferred. Because the transfer of Martin's Cove under 
H.R. 4103 would not follow this established Federal policy, we urge 
Congress carefully review this sale to ensure that Federal protections 
are not lost for this area, which has historical significance to the 
entire nation.
    The National Trust recognizes the importance of the Martin's Cove 
site for the LDS Church as a historic site where 150 emigrants of the 
Willies and Martin handcart companies lost their lives in an early fall 
snowstorm in 1856, and understand the Church's interest in playing a 
role in interpreting the site. However, we also recognize that this 
area has a rich history of the western emigration movement for Mormons 
and non-Mormons alike, as well as Native Americans who resided in this 
area well before western settlers arrived.
    Western historians have noted that much of Wyoming history is a 
story about people who traveled across the state to get somewhere else. 
Most people traveled through the state on the California, Oregon, and 
Mormon trails. Collectively, their history is part of the larger story 
of the California gold rush, of farmers looking for a new life in the 
lush valleys of Oregon, and of the Mormon settlement of Utah. With few 
exceptions, their individual stories were never written down. Instead 
the only record of their journey is in the wheel ruts, the campsites, 
and their discarded artifacts of everyday life and their sacrifices 
marked by hastily dug gravesites along the trail.
    Native Americans, who were there well before the western settlers, 
also traveled through this area attracted by the same amenities as the 
emigrants. For example, two archaeological sites that may be eligible 
for the National Register of Historic Places have been identified near 
Martin's Cove and it is likely that many more are yet to be discovered.
    The opportunity to survey, identify, record and protect historic 
sites associated with Native American and western migration history 
could be lost if this land is transferred to the LDS Church without 
including the preservation provisions afforded under existing Federal 
law. In addition, a perpetual easement should also be considered as 
part of the conveyance, which would allow for continued public access 
to this area. In a letter to Chairman Hansen dated May 3, the National 
Trust made it clear that while we do not object to the transfer per se 
to the LDS Church, we are concerned that the legislation, as currently 
written, would transfer this nationally significant historic area 
without also transferring the long-term legal protections for historic 
and cultural resources that now apply to this land because it is owned 
and managed by the Federal Government.
    For example, the National Historic Preservation Act imposes 
obligations on Federal agencies to ensure that activities on Federal 
land fully address impacts on properties eligible for or listed on the 
National Register of Historic Places. Section 110 of the Act imposes a 
number of stewardship obligations on Federal agencies including the 
responsibility to survey, identify, and evaluate historic properties 
under their control or ownership; to undertake the preservation of such 
properties under Federal standards, consistent with agency mission 
requirements; to coordinate preservation related activities with state 
and local agencies and Indian Tribes; and to approve plans undertaken 
by transferees of Federal property to see that historic and culturally 
significant values are preserved and enhanced.
    Further, the Native American Graves Protection and Repatriation Act 
(NAGPRA), the Archaeological Resources Protection Act (ARPA), the 
American Indian Religious Freedom Act (AIRFA), and Executive Order 
13007 also impose certain protections for archaeological and cultural 
resources. These protections apply to Federal land stewards like the 
BLM, but would not apply to lands passed along to private owners unless 
by express requirement. For example, NAGPRA imposes certain obligations 
on BLM to take steps to protect Native American cultural items found on 
Federal lands through intentional excavation or inadvertent 
discoveries, and establishes a process to repatriate human remains and 
associated Native American cultural items to the Indian Tribes. ARPA 
regulates access to archaeological resources on Federal and Indian 
Lands and in essence forbids anyone from excavating or removing an 
archaeological resource from these lands without first obtaining a 
permit from the responsible land management agency.
    Under AIRFA, a Federal agency is obligated to consider, and consult 
with Tribes about anything that might affect their religious practices. 
AIRFA is a call to recognize that religious practices, not just places, 
and certainly not just National Register eligible places, are 
``cultural resources'' that need to be considered in planning. 
Executive Order 13007 deals explicitly with sacred sites and in short 
requires Federal agencies to accommodate access to and ceremonial use 
of Indian sacred sites by Indian religious practitioners, to avoid 
adverse effects to the physical integrity of such sites, and to 
implement procedures to carry out the provisions of the order in a 
manner that respects the government-to-government relations between the 
U.S. government and Indian tribal governments.
    Again, these legal protections would no longer be applicable once 
public land is transferred into private ownership, unless they are 
passed along to the grantee. Therefore, we would oppose any legislative 
transfer of Martin's Cove that does not include such protections as a 
precondition to a sale of the land.
    Should Congress decide to proceed with this transfer, the National 
Trust strongly recommends that H.R. 4103 be amended to include Federal 
protections for cultural resources provided by the National Historic 
Preservation Act, the Native American Graves Protection and 
Repatriation Act, the American Indian Religious Freedom Act, and the 
Archaeological Resources Protection Act. Because cultural resources 
cannot be properly protected until they are identified, it is also our 
view that any transfer legislation should require the BLM to complete a 
comprehensive cultural resource survey of the land as a precondition of 
any transfer. The BLM (or the recipient, subject to the agency's 
approval) should also be required to prepare a comprehensive management 
plan that addresses issues relating to public access and interpretation 
of sites and takes into account the full range of historic and cultural 
resources in this area. Other interested parties--including state and 
local authorities and appropriate Native American Tribes--should be 
consulted throughout the process.
    We believe that such protections can be incorporated into an 
easement or protective covenant that will run with the land when it is 
sold. Alternatively, we would also support a co-stewardship agreement 
between the Federal land management agency and the LDS Church where 
lands would continue in public ownership, but would be privately 
managed with all Federal protections intact, and consistent with the 
type of management plan noted earlier.
    A precedent for transferring legal protections with Federal lands 
occurred recently when land along the Missouri River was transferred 
from the Army Corps of Engineers to the State of South Dakota under 
Title VI of the Water Resources Development Act. The law specifically 
contained language that ensured the National Historic Preservation Act, 
the Native American Graves Protection and Repatriation Act, and the 
Archeological Resources Protection Act would continue to apply to the 
land upon transfer. This land contains a vast number of historic and 
cultural resources within the Missouri River basin in South Dakota. 
Historic and cultural sites include homesteads, trading posts, 
prehistoric villages, sites with fortifications, petroglyphs, historic 
forts and townsites, battle sites, sites visited by Lewis and Clark, 
and several prehistoric and historic cemeteries.
    In sum, whether the recipient is a state agency or a private owner, 
the transfer of nationally significant historic lands from Federal 
stewardship should not occur unless legal assurances are incorporated 
to see that the protections afforded to cultural resources would 
continue to apply after the land has been transferred. In addition, 
public access to this area should continue in perpetuity and must be 
included as part of any conveyance.
    Finally, if this land is transferred, we would support the 
Department of the Interior's recommendation that H.R. 4103 include a 
reversionary clause to the Federal Government in order to ensure the 
site will be protected should the Church chose to discontinue ownership 
or falter in the management of the Martin's Cove property in the 
future.
    Mr. Chairman, we look forward to working with you and the committee 
to address these concerns about this legislation. Thank you very much 
for the opportunity to provide testimony on H.R. 4103. This concludes 
my statement and I will be pleased to answer any questions you or the 
other members of the subcommittee may have on our views.
                                 ______
                                 
    Mr. Radanovich. We will now move to Mr. Kirk Koepsel. Kirk, 
welcome to the Committee, and please begin your testimony.

      STATEMENT OF KIRK KOEPSEL, NORTHERN PLAINS REGIONAL 
         REPRESENTATIVE, SIERRA CLUB, SHERIDAN, WYOMING

    Mr. Koepsel. Mr. Chairman and members of the Committee, 
thank you for the opportunity to testify here today. I would 
like to establish by my testimony our opposition to H.R. 4103, 
the sale of historically important public lands to a private 
entity.
    I am Kirk Koepsel, Northern Plains Senior Regional 
Representative for the Sierra Club, and I am speaking today on 
behalf of the Wyoming Chapter of the Sierra Club.
    Section 102(a) of the Federal Land Policy and Management 
Act of 1976, FLPMA, clearly states Congress declares that it is 
the policy of the United States that the public land be 
retained in Federal ownership unless as a result of land use 
planning procedures provided under this act it is determined 
that disposal of a particular parcel will serve the national 
interest.
    Section 203(a) of the same Act makes it even more clear 
that this sale is contrary to the national interest where it 
prohibits the BLM from selling lands along units of the 
National System of Trails. Martin's Cove is located along four 
national historic trails, the Oregon Trail, the Mormon Trail, 
the California Trail, and the Pony Express Trail. In fact, the 
region surrounding these four trails near Martin's Cove is one 
of the best areas to view the intact trails and experience the 
history of westward expansion. The four trails and their tracks 
have been severely diminished in other parts of the West by 
highway paving, development, and agricultural cultivation. 
Thus, it is important to preserve the Martin's Cove area.
    Quite frankly, with the prohibition of sale of lands along 
national trails in FLPMA, the Sierra Club was surprised by the 
endorsement of an amended H.R. 4103 by the Department of 
Interior at the Casper field hearing. This is a major shift in 
policy. The Wyoming BLM told the Church that they would not 
sell Martin's Cove in accordance with their resource management 
plan. It makes little sense that the Department of Interior 
would blatantly disregard Federal law and local management 
decisions.
    There have not been any BLM administered National Register 
of Historic Places sold to a private entity that we have been 
able to find. If the BLM was forced to transfer title to 
Martin's Cove, let alone an entire 2.5 sections of public land, 
it would be selling off a National Register site at Martin's 
Cove and part of the Tom Sun Ranch National Historic Landmark.
    Martin's Cove is located within recommended boundaries for 
the Sweetwater Rocks wilderness area proposed by 16 Wyoming 
conservation and sporting organizations. It is an area of 
exceptional beauty and scenery. The area is composed of an 
ancient mountain range whose smooth pink granite is the 
backdrop for the Sweetwater River and for the four national 
historic trails which pass close by.
    This is probably the most significant and detrimental 
public land sale in Wyoming and the Nation in recent memory. 
The precedent would be established to dispose of nationally 
significant public lands to special interest groups. Never 
before has a national historic site, and when I say national 
historic site, I want to be clear on this that the common 
vernacular for areas that are on the National Register of 
Historic Places is national historic site. I think most of the 
Chambers of Commerce around the West refer to their historic 
properties with that title, and of national historic trails 
have not been sold to any special interest groups.
    In fact, a front-page story in the Saturday, May 11, 2002 
Casper Star Tribune discusses how Native Americans are paying 
close attention to this bill because of their desire to acquire 
sacred sites. Devil's Tower National Monument in Wyoming and 
Rainbow Bridge National Monument in Utah are examples of Native 
American sacred sites that have had difficulty coordinating 
sacred use with the general public's enjoyment.
    The Martin's Cove area is currently managed under a 
cooperative management agreement between the Bureau of Land 
Management and the Church of Jesus Christ of Latter-day Saints. 
I have toured and hiked Martin's Cove area, as well as the 
Sweetwater Rocks wilderness study areas. The Church does a 
great job of interpretation of the site at the Sun Ranch. 
Visitors can go to Martin's Cove via a hiking trail and even 
pull a handcart if they choose. The short hike to Martin's Cove 
is beautiful and inspirational the way it is currently managed. 
The current management more than satisfies the vast majority of 
visitors who go to the site. The Wyoming Chapter of the Sierra 
Club believes there is no need to change the management at 
Martin's Cove.
    We also feel that Representative Hansen should accede to 
the position of Wyoming's U.S. Representative, Barbara Cubin, 
who does not support this legislation. We would hope that 
Representative Cubin's opposition would warrant the withdrawal 
of H.R. 4103 from the legislative process. Martin's Cove is 
best left in public ownership with the current and cooperative 
management that is occurring at the area.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Koepsel follows:]

  Statement of Kirk Koepsel, Northern Plains Regional Representative, 
          Sierra Club and Wyoming Chapter Member, on H.R. 4103

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify here today. I would like to establish by my 
testimony our opposition to House Resolution 4103, the sale of 
historically important public lands to a private entity.
    I am Kirk Koepsel, Northern Plains Senior Regional Representative 
for the Sierra Club. I am speaking today on behalf of the Wyoming 
Chapter of the Sierra Club. I have been a Chapter member for twelve 
years. The Wyoming Chapter represents over 1,000 Wyoming citizens and 
over 700,000 members nationwide who recreate, explore and enjoy our 
public lands.
The Martin Cove Sale Is Contrary to the Federal Land Policy and 
        Management Act of 1976
    Section 102(a) of the Federal Land Policy and Management Act of 
1976 (FLPMA) clearly states: Congress declares that it is the policy of 
the United States that (1) the public lands be retained in Federal 
ownership, unless as a result of the land use planning procedure 
provided for in this Act, it is determined that disposal of a 
particular parcel will serve the national interest.
    Section 203(a) makes it even more clear that this sale is contrary 
to the national interest where it prohibits the BLM from selling lands 
along units of the National System of Trails.
Historical Value
    Martin's Cove is located along four National Historical Trails--the 
Oregon Trail, Mormon Trail, California Trail, and the Pony Express 
Trail. In fact, the region surrounding these four trails near Martin's 
Cove is one of the best areas to view the intact trails and experience 
the history of western expansion. The four trails and their tracks have 
been severely diminished in other parts of the West by highway paving, 
development and agricultural cultivation, thus it is important to 
preserve the Martin's Cove area.
    500,000 people traveled these Historic Trails before 1900. Eighty-
five per cent of these users were not Mormons headed for Utah. The 
Oregon Trail is the first road carved by covered wagon travelers and 
later followed by the 49'ers, Mormon pioneers and Pony Express riders. 
The Mormon Trail is recognized as the first National Historic Trail in 
the nation. The Native American prehistoric use of the Martin's Cove 
vicinity should be recognized as well.
    Quite frankly, with the prohibition on selling lands along National 
Trails in FLMPA, the Sierra Club was surprised by the endorsement of an 
amended H.R. 4103 by the Department of Interior at the Casper field 
hearing. This is a major shift in policy. The Wyoming BLM told the 
Church that they would not sell Martin's Cove in accordance with their 
Resource Management Plan, and it makes little sense that the Department 
of Interior would blatantly disregard Federal Law, and local management 
decisions.
Martin's Cove Sale is Contrary to the Intent of the National Register 
        of Historic Places
    There has not been any BLM-administered National Register of 
Historic Places sold to a private entity. If the BLM were forced to 
transfer title of Martin's Cove, let alone an entire 2.5 sections of 
our public land, it would be selling off the National Register site at 
Martin's Cove and part of the Tom Sun Ranch National Historic Landmark.
Martin's Cove Sale Would Include Lands Proposed for Wilderness 
        Designation
    Martin's Cove is located within recommended boundaries for the 
Sweetwater Rocks wilderness area proposed by sixteen Wyoming 
conservation and sporting organizations. It is an area of exceptional 
beauty and scenery. This area is composed of an ancient mountain range 
whose smooth pink granite is a backdrop for the Sweetwater River and to 
the four National Historic Trails, which pass close by.
Martin's Cove Would Set a Dangerous Precedent for Other Religiously 
        Significant Lands
    This is probably the most significant and detrimental public land 
sale in Wyoming and the Nation in recent memory. The precedent will be 
established to dispose of nationally significant public lands to 
special interest groups. Never before has a National Historic Site or 
National Historic Trail been sold to any special interest group. In 
fact, a front page story in the Saturday, May 11, 2002 Casper Star 
Tribune discusses how Native Americans are paying close attention to 
this bill, because of their desire to acquire sacred sites. Devil's 
Tower National Monument in Wyoming and Rainbow Bridge National Monument 
are examples of Native American sacred sites that have had difficultly 
coordinating sacred use with the general public's enjoyment. Other 
religious institutions may also be interested in the purchasing of 
public lands. For example, much of the red rock canyon country around 
Sedona, Arizona is considered sacred to believers in New Age religion.
Conclusion
    The Martin's Cove area is currently managed under a cooperative 
management agreement between the Bureau of Land Management and the 
Church of Jesus Christ of Latter-day Saints. I have toured and hiked 
Martin's Cove area as well as the Sweetwater Rocks Wilderness Study 
Areas. The Church does a great job on interpretation of the site at the 
Sun Ranch. Visitors can go to Martin's Cove via a hiking trail, and can 
even pull a handcart if they choose. The short hike to Martin's Cove is 
beautiful and inspirational the way it is currently managed. The 
current management more than satisfies the vast majority of visitors 
who go to the site. The Wyoming Chapter of the Sierra Club believes 
that there is no need to change the management at Martin's Cove. There 
are many reasons that we have pointed out that the sale of this land is 
not in the public's best interest.
    We also feel that Representative Hansen should accede to the 
position of Wyoming's U.S. Representative, Barbara Cubin who does not 
support this legislation. We would hope that Representative Cubin's 
opposition would warrant the withdrawal of H.R. 4103 from the 
legislative process. Martin's Cove is best left in public ownership 
with the current cooperative management that is occurring at the area.
                                 ______
                                 
    The Chairman. Mr. Lukei, you are recognized for 5 minutes.

    STATEMENT OF REESE F. LUKEI, JR., NATIONAL COORDINATOR, 
  AMERICAN DISCOVERY TRAILS SOCIETY, VIRGINIA BEACH, VIRGINIA

    Mr. Lukei. Thank you. Chairman Hansen and members of the 
Subcommittee, my name is Reese F. Lukei, Jr. I have been the 
National Coordinator of the American Discovery Trail for the 
past 11 years, a grassroots project administered by the 
American Discovery Trail Society.
    The principal goals have been to, one, establish our 
nation's first coast-to-coast multi-use recreational trail 
through a nationwide grassroots effort; two, connect as many 
existing local, regional, and national trails together as 
possible; three, route the trail through large metropolitan 
cities and smaller towns, thus bringing it closer to where 
people live; and four, provide encouragement to local citizen 
groups and municipalities to develop and maintain trails in 
their communities.
    Under the National Trails System Act, eight national scenic 
trails have been created under the model established by the 
Appalachian Trail and, therefore, are mostly located in remote 
areas, avoiding urban areas. Over the past 30 years, there has 
been a major shift in the use of trails, as indicated by 
several studies by Federal agencies, the outdoor recreation 
industry, and the housing industry, all demonstrating that 
recreational trail use has increased tremendously and is 
expected to continue to do so, and most importantly, that 
people are demanding and using trails closer to where we live.
    The proposed long-distance category national discovery 
trails and the American Discovery Trail recognizes these 
trends. The ADT is the first long-distance trail that has been 
intentionally designed to link trails together as envisioned by 
the National Trails System Act in 1968 and to pass through or 
near large metropolitan areas. Thirty-two million Americans 
live within 20 miles of the 6,000-mile-long route of the ADT.
    The American Discovery Trail connects five of the eight 
national scenic trails, including the Mormon Pioneer Trail, ten 
of the 14 national historic trails, 23 national recreation 
trails, 35 rail trails, and over 150 other local and regional 
trails.
    All this has been accomplished through the involvement of 
several thousand citizen volunteers under the leadership of our 
15 State coordinators, who have paid all their own expenses. 
Much credit is also due to local, State, and Federal land 
managers, town councils, planning commissions, natural resource 
districts, and economic development and tourism commissions for 
their assistance, cooperation, and involvement.
    We have been especially sensitive to the concerns of 
private landowners with whom we have held many meetings. Of the 
over 6,000 miles of ADT, only 88 miles are on private property 
and all of that is on existing trails with the landowners' 
permission.
    One of the major accomplishments of the American Discovery 
Trail has been to provide incentive to citizens and local 
leaders across our nation to become involved in creating and 
maintaining trails in their communities. The mayor of Green 
Mountain Falls, Colorado, Richard Branton, made these comments 
to the Senate Energy and Natural Resources Committee at the 
hearing on the ADT legislation. ``The ADT provides a unique and 
important connection between urban and back-country trail 
systems. The ADT has helped us realize a non-motorized link 
between the second-largest city in Colorado, Colorado Springs, 
and the mountain communities that surround Pike's Peak. The 
concept of the ADT has been instrumental in assisting us in our 
local fundraising efforts, supporting grant requests and 
capturing the interest of State, county, and local elected 
officials. The American Discovery Trail is key to our 
success.''
    The 160-mile River-to-River Trail in Southern Illinois is 
another prime example of the incentive the ADT has provided. In 
1991, when the ADT scouting team passed through Illinois, the 
River-to-River Trail was not much more than a line on a map, 
and not even that in some places. Today, the entire trail is in 
place, marked, mapped, guidebook written, and has a 1,000-
member organization supporting the trail. In 1997, Backpacker 
magazine named it the best trail in Illinois.
    The ADT is producing economic benefits for communities 
along its route. In 1999, Muncie, Indiana, hosted the American 
Boat Sport Association convention with 1,800 attendees. The 
reason Muncie was selected is because of the Cardinal Greenway, 
which at its dedication in August 1999 was described as 
Muncie's new main street. The Cardinal Greenway is a vital link 
in the ADT.
    I might add, one of the most successful new businesses 
along the American Discovery Trail is on the Katie Trail near 
Roseport, Missouri, and it is a winery.
    The U.S. Senate has passed companion bill S. 498. Senator 
Frank Murkowski, sponsor of the bill, stated, ``This is an 
historic piece of legislation. By combining volunteer effort 
with those of local and State governments, we have created a 
unique partnership which ultimately will benefit the entire 
country.'' I am excited by this bill and believe it will set a 
precedent for future trails across America.
    On behalf of the 15 ADT State coordinators, the ADT 
Society, the thousands of citizen volunteers, and the land 
managers who have worked hard for 12 years to create the 
American Discovery Trail, I urge your support of this 
legislation. We wish to express our appreciation to Congressman 
Doug Bereuter, his staff, and the 39 members who have 
cosponsored H.R. 36. Thank you for allowing me to present my 
comments.
    The Chairman. Thank you, Mr. Lukei. We appreciate your 
testimony.
    [The prepared statement of Mr. Lukei follows:]

Statement of Reese F. Lukei, Jr., National Coordinator of the American 
Discovery Trail, A Project of the American Discovery Trail Society, on 
                                H.R. 36

    Chairman Radanovich and Members of the Subcommittee:
    My name is Reese F. Lukei, Jr. I am the National Coordinator of the 
American Discovery Trail, a project of the American Discovery Trail 
Society to develop and establish our nation's first coast-to-coast 
multi-use recreation trail, and to have it authorized as the 23RD long-
distance trail under the National Trails System Act of 1968 in a new 
long-distance trail category to be known as National Discovery Trails.
    During the past 30 years there have been many new trends affecting 
trails and the people who use them. With a greater awareness of the 
benefits of outdoor exercise to our personal health and a greater 
awareness of our environmental surroundings, people have discovered 
trails in their communities in ever-growing numbers. Over 800 trails 
have been designated National Recreation Trails, mostly in urban areas. 
Communities large and small have or are currently developing trails 
systems to accommodate this increased demand. The proposed National 
Discovery Trails category and the American Discovery Trail are an 
outgrowth of this intense interest in trails, especially at the local 
level.
NATIONAL DISCOVERY TRAILS
    National Discovery Trails would have several important features 
that would enhance the National Trails System and meet the needs of 
trail users. Currently there are no congressionally designated trails 
that are primarily intended to link existing trails and urban areas 
into the national network envisioned by the National Trails System Act. 
National Discovery Trails provide this opportunity by linking existing 
and developing national, regional and local trails into an integrated 
system, much like the interstate highway system. National Discovery 
Trails would connect urban areas where most people live to rural and 
backcountry regions. Trail users would have the opportunity to 
experience a wide variety of physiographic regions and human settlement 
patterns and could gain a sense of national connection.
    Recent studies addressing outdoor recreation needs and especially 
trail use by Federal agencies, the outdoor industry, the housing 
industry, and a coalition of citizen groups have all indicated a 
greater need for trails. The proposed National Discovery Trails and the 
American Discovery Trail have intentionally addressed the following 
aspects of these studies:
    <bullet> Trails should be established closer to where people live 
and work;
    <bullet> Trails should be developed through grassroots efforts;
    <bullet> Trails should be linked to form an interconnected system.
    National Discovery Trails would be defined to fulfill four specific 
purposes:
    <bullet> Specifically emphasize linkages with national, regional 
and local trails;
    <bullet> Emphasize connections with urban and metropolitan areas;
    <bullet> Include existing trails and could be located along 
roadways if necessary to make the trail continuous;
    <bullet> Administration of the trail to be shared between land 
managers and a competent trailwide volunteer-based organization.
AMERICAN DISCOVERY TRAIL
    The American Discovery Trail (ADT) has been designed, developed and 
established to address the intent and objectives of the National Trails 
System and the proposed National Discovery Trails category.
PROJECT OBJECTIVES
    The effort to establish the ADT began in the fall of 1989 as a 
joint project of the American Hiking Society, a national nonprofit 
organization, and Backpacker Magazine. In April 1996, the American 
Discovery Trail Society was formed and currently administers all the 
affairs of the ADT. The following are the major objectives:
    <bullet> Establish the first permanent coast-to-coast multi-use 
non-motorized recreation trail through a nationwide grassroots effort 
in cooperation with Federal, state and local land managers;
    <bullet> Connect together as many existing national, regional, 
state and local trails as possible;
    <bullet> Include in the trail route major metropolitan areas as 
well as smaller cities and towns, thus bringing the trail as close to 
where people live and work as possible;
    <bullet> Provide incentives and encourage the development of new 
trails and trail support organizations, and increase citizen 
participation in the upkeep of the trails they use.
TRAIL ROUTE
    The ADT is over 6,000 miles long and traverses 15 states and the 
District of Columbia. 32 million Americans live within the corridor of 
the route. It begins (or ends) at the edge of the Pacific Ocean at 
Point Reyes National Seashore north of San Francisco. From there it 
crosses California, Nevada, Utah and Colorado, where in Denver it 
splits into two routes. The northern Midwest route winds through 
Nebraska, Iowa, Illinois, Indiana and a short section of Ohio. The 
southern Midwest route explores Kansas, Missouri, Illinois, and 
Indiana. After reconnecting just west of Cincinnati, the route 
continues through Kentucky, Ohio, West Virginia, Maryland, Washington, 
D.C. and Delaware, where it ends (or begins) at the Atlantic Ocean at 
Cape Henlopen State Park.
TRAIL DEVELOPMENT
    The route of the ADT was determined through the cooperative efforts 
of citizens working with Federal, state and local land managers, state 
and local economic development and tourism commissions, state and local 
planning and transportation departments, and state departments of 
natural resources through each States' trails coordinator. The 
activities within each state have been coordinated and administered 
through the efforts of a volunteer coordinator. The original route was 
determined by a three person scouting team in 1990-91 during which they 
hiked and biked trails and roads that were selected by citizen 
committees in each state. Subsequent to that event, efforts have 
continued to refine the route and to obtain the permission of land 
managers to mark the route ADT with markers. Over 4,000 miles of the 
route are currently marked.
    The ADT links 5 of the 8 National Scenic Trails, 10 of the 12 
National Historic Trails, 23 National Recreation Trails, 35 rail-trails 
and over 100 other regional, state and local trails. In addition the 
ADT passes through 14 National Parks, 16 National Forests, dozens of 
State Parks and Forests, and many local recreation areas. The National 
Park Service feasibility study estimates that the corridor of the ADT 
route contains over 10,000 historic, cultural and natural sites of 
significance.
    The ADT is the first long-distance trail that has been 
intentionally routed to pass through or near some of our largest cities 
such as San Francisco, Oakland, Sacramento, Carson City, Moab, Denver, 
Lincoln, Omaha, Des Moines, Davenport, Kansas City, St. Louis, Chicago, 
Evansville, Cincinnati, and Washington, D.C. Many smaller cities and 
towns are also on the route, bringing the trail close to where 32 
million Americans live. There are also many opportunities to visit 
remotely located forests, deep canyons, and the vast wide open deserts 
of the west. The variety of experiences that one can expect is as large 
as one can dream, from city sidewalks and parks to the most distantly 
located mountain top. The entire route of the ADT is now described in 
detail on our web site--www.discoverytrail.org.
    Grand opening events were held in each state during the year 2000. 
Over 300 events in communities large and small marked the official 
opening of the ADT. In 1999 the ADT was designated as one of 16 
National Millennium Trails by the White House and U.S. Department of 
Transportation.
LOCAL INCENTIVE
    The ADT has provided an incentive to local citizen groups to 
develop new trail projects, regional or citywide planning efforts, and 
has been of assistance to projects already underway by municipal 
entities. Some examples are:
        Delaware Greenways project--Delaware
        Washington, Baltimore & Annapolis Recreational Trail--Maryland
        North Bend Rail-Trail--West Virginia
        Buckeye Trail--Ohio
        Cardinal Greenway--Indiana
        River to River Trail--Illinois
        Grand Illinois Trail--Illinois
        Gateway Trailnet--Illinois and Missouri
        Flints Hills Nature Trail--Kansas
        Waterloo/Evansdale/Cedar Falls Trails System--Iowa
        Nebraska State Trails Plan--Nebraska
        Ute Pass Trail Corridor--Colorado
        Washoe Lake State Park--Nevada
        Western State Trail--California
        East Coast Greenway--Maine to Florida
        Trans Canada Trail--Canada
    There are currently over 35 trail projects in 12 ADT states 
totaling over 1,000 miles that will in the future move the ADT off 
paved or gravel roads and onto trails. All these projects are as a 
result of local citizen efforts in cooperation with appropriate state 
and local agencies.
PRIVATE PROPERTY
    Eighty-eight miles of the trail is on private property, and then 
only by landowner invitation on existing rights-of-way. States with no 
trail on private property are Delaware, Maryland, Washington, DC, 
Kentucky, Missouri, Nebraska, Colorado, and Utah. Sections on private 
property are:

Ohio--Buckeye Trail, 10 sections involving Mead Paper, General Electric 
        and Eight other landowners
Iowa--Hoover Valley Nature Trail--nonprofit owned trail
Indiana--Campus of Hanover College
  Cardinal Greenway--nonprofit owned trail
  Indiana Power and Light right-of-way
West Virginia--farm field--temporary until Harrison County Trail 
        completed
California--In-holdings in Tahoe National Forest to be acquired as part 
        of Western States Trail
PROJECT FUNDING
    The development of the ADT has been accomplished with a minimal 
amount of Federal Government funding, and that has come through the 
cooperative efforts of the personnel in the local and regional offices 
of the National Park Service, USDA Forest Service, and Bureau of Land 
Management, plus the cost of the NPS feasibility and desirability 
study. Many local, state and regional agencies have also contributed 
through their cooperative efforts.
    Funding of the project, estimated at about $4 million, has come 
through the members of the American Discovery Trail Society, and early 
in the project the American Hiking Society, the volunteer state 
coordinators who have funded their own efforts, and our major sponsors, 
Backpacker Magazine, Trails Illustrated/National Geographic, Coleman 
Company, Ford Motor Company and about 30 other businesses in the 
outdoor industry.
GRASSROOTS SUPPORT AND PARTNERSHIPS
    The American Discovery Trail has generated a nationwide 
constituency of grassroots groups, private sector businesses, and 
local, state, regional and Federal agencies to establish a route which 
is at once nationally and locally significant as it weaves its way 
through communities large and small, and through national, state and 
local parks and forests. It is equally important for connecting trails 
which alone might not be of national significance, but linked together 
are essential to a comprehensive national system and form a whole much 
greater than the sum of its parts.
    In its short lifetime, the ADT development effort has strengthened 
and broadened the trails community. In an era when government is 
reaching out to the private sector, looking for strong partnerships, 
the ADT represents partnerships on every level: a strong partnership 
between a national nonprofit advocacy group and private businesses, 
partnerships between local trails groups and local agencies working to 
find the best route across this country, and partnerships with local 
businesses and state agencies which see the ADT as a source of 
potential economic benefit.
SUMMARY
    The American Discovery Trail is about people and for people. It is 
a trail that winds through communities large and small, forests and 
mountains, and has involved a large number of active volunteers and 
partnerships with trails organizations, local and national businesses, 
and a huge number of local, state and Federal agencies. The ADT 
combines the qualities of national scenic, historic and recreation 
trails with an urban emphasis, but its real strength is that it 
provides connections--the connection between trails, between cities and 
the backcountry, and between the Atlantic and Pacific Oceans. The ADT 
connects people on their neighborhood trail to other people on their 
neighborhood trail many miles away.
    The American Discovery Trail deserves to be the first National 
Discovery Trail. The U.S. Senate has passed a companion bill S.498. 
Senator Frank Murkowski, who sponsored the bill, stated ``This is an 
historic piece of legislation. By combining volunteer efforts with 
those of local and state governments, we have created a unique 
partnership, which ultimately will benefit the entire country. I am 
excited by this bill and I believe it will set a precedent for future 
trails across America''.
    The American Discovery Trail Society urges you to join Senator 
Murkowski and the U.S. Senate, and Congressman Doug Bereuter and the 39 
cosponsors of H.R. 36 with your support of The National Discovery 
Trails Act of 2001.
                                 ______
                                 
    The Chairman. We appreciate the testimony of the panel. We 
will now have questions from the members to the panel that are 
here. Keep in mind, there are really only two members of the 
Committee, and that is Mr. Faleomavaega and Mr. Dale Kildee, so 
I will take these two first. Tom, I did not know you were a 
member of this Committee.
    [Laughter.]
    The Chairman. Let me apologize to you. There are now three 
members of the Committee. Does anybody on the majority side 
want to claim membership?
    [Laughter.]
    The Chairman. Mr. Faleomavaega, you are recognized for 5 
minutes. I would like to hold everybody to that 5 minutes 
because we have got other panelists and we are going to have to 
give this room up.
    Mr. Faleomavaega. And all Democrats, too, Mr. Chairman.
    The Chairman. That is OK. We love you.
    [Laughter.]
    Mr. Faleomavaega. Thank you, Mr. Chairman. I would just 
like to ask Bishop Burton a couple of questions.
    Were there obviously survivors of both the Willie and the 
Martin Companies that kept journals on this event?
    Bishop Burton. Indeed, there are a number of journals. My 
own second-great grandfather's journal is one of those.
    Mr. Faleomavaega. Is there an approximate number? How many 
journals are there? Does the Church have this in its--
    Bishop Burton. We have a number of journals in our 
archives. I could not tell you exactly the number, 
Representative, but there are a substantial number.
    Mr. Faleomavaega. Could you provide this for the record, 
Bishop Burton?
    Bishop Burton. Absolutely.
    Mr. Faleomavaega. The reason why I am raising this issue is 
because there was some concern that some historian or other 
made a very narrow interpretation of what history is or what it 
should be and I was just wondering if, in fact, there were 
journals kept by the survivors of these two companies in 
question.
    Bishop Burton. Yes. The answer is yes.
    Mr. Faleomavaega. I would like to ask you to comment on 
some of the suggestions that were offered by the Department of 
the Interior officials in the hearing this morning. The 
question of public access in perpetuity to Martin's Cove, does 
the Church have any concerns about that suggestion?
    Bishop Burton. There were a number of suggestions made this 
morning and in Casper on the fourth and those suggestions seem 
to strengthen the bill. Although we have not seen the exact 
text of those changes, conceptually, we find them all right.
    Mr. Faleomavaega. This also is possible as far as also 
having a smaller land scale as far as the land area?
    Bishop Burton. The 1,640 acres preserved a view corridor 
around the cove, and obviously if that is not deemed something 
that wants to be transferred to protect that, then certainly 
less acreage could be computed.
    Mr. Faleomavaega. And the Church also is open to whatever 
proper evaluation can be given to the land if it is to be 
conveyed or sold?
    Bishop Burton. Certainly, fair market value, and with all 
the frailties that Representative Cubin has identified already. 
But there is one comparable. We purchased a property 3 years 
ago at the Sixth Crossing of the Sweetwater, which would be a 
comparable site. So at least there is one market indicator of 
value.
    Mr. Faleomavaega. I would like to ask Mr. Larsen, since you 
are a citizen and a resident of Wyoming, what prompted the 
local LDS members to do this project with reference to Martin's 
Cove? I mean, this is not something that just happened 
overnight.
    Mr. Larsen. No, no, no. In fact, four decades, members from 
the Lander and Riverton area would go to Rock Creek Hollow, 
which is in the South Pass area, and celebrate our version of 
Pioneer Day, when the pioneers reached the State of Utah. Over 
the course of that time, we started to become interested more 
and more in the history of those handcart pioneers.
    In the early 1990's, we started doing a great deal of 
research, and as we come to know the members of those 
companies, and I mean that literally, as we have studied them 
and as we have read their journals, we come to know who they 
were, we felt a deep regard to preserve the legacy that they 
had left us. As our young people learned about the sacrifices 
and the determination and the heroic rescues that took place, 
it changed them. It changed them for the better. It made them 
better citizens of our communities. And, therefore, we felt 
that we needed to do something to preserve those sites that 
were relevant to their trek across Wyoming.
    Mr. Faleomavaega. Ms. Higgins, you suggested in your 
testimony that a continuation of a co-stewardship between the 
LDS Church and the BLM for the management of Martin's Cove. Is 
this basically where your position is?
    Ms. Higgins. Congressman, our interest is in making sure 
that the Federal protections that now apply continue to apply. 
One model is a co-stewardship model. The other is to 
incorporate those Federal protections in legislation that would 
authorize the transfer. We certainly are supportive of the 
issues that the Department of Interior raised today in terms of 
the easements and other kinds of things.
    Mr. Faleomavaega. Mr. Koepsel, you testified in opposition 
to the proposed bill and you expressed concern that Martin's 
Cove might have a negative impact on the national historic 
trails, the four trails. How is that going to impact 
negatively, the proposed bill with the development of Martin's 
Cove?
    Mr. Koepsel. What I said there is there is a prohibition in 
the Federal Land Policy and Management Act from selling land 
along national historic trails. I think the development that 
has happened at Martin's Cove, I think I was clear on that, 
too, I thought was well done, really explained what had 
happened at the site quite well, and was actually very 
inspirational, what has happened there.
    Mr. Faleomavaega. Do you know how far the historic trails 
are from Martin's Cove?
    Mr. Koepsel. There is a corridor on each side. Obviously, 
Martin's Cove was impacted by the historic trails, but probably 
within a mile, I would imagine, of where the trails are.
    Mr. Faleomavaega. About a mile. I was just wanting to know 
from your point of view how this would negatively impact the 
preservation, if you will, of where the historic trails are.
    Mr. Koepsel. I think what I meant through my testimony is 
that these trails have been determined to be in the national 
interest, and also, I would like to say that the Mormon 
migration across this area and the settlement of the inter-
mountain West is a huge part of our national history for this 
area. Parts of Wyoming such as Star Valley and the Big Horn 
Basin were Mormon settlements and it is a huge part of our 
history and a huge part of our nation's history.
    Mr. Faleomavaega. You mentioned also that there seems to be 
some concern on your part that decisions that were made by the 
local BLM officials did not coincide exactly with the change in 
policy here from the national office of the Department of 
Interior. Are you suggesting that the local officers throughout 
the country should have their own decisionmaking without any 
overseeing approach from those who are supposed to be--it is 
just like the Crusader Howitzer project that we are having 
problems with. Somebody has got to make a final decision on 
this. Are you suggesting that the BLM officials in Wyoming 
should be given the final decision on an issue like this?
    Mr. Koepsel. What my testimony said is I think that the 
local officials looked at what their organic act said and made 
a decision that these lands were not available for sale. It did 
not comply with their resource management plan for the area, 
nor do I think it could because of the prohibitions that are in 
FLPMA. So I think the problem here is that the Department of 
Interior's testimony is not in agreement with Federal law and 
that the local decisionmakers made a determination that they 
could not sell these lands because of the Federal law.
    Mr. Faleomavaega. Do you have access to the recommendations 
of the local BLM officials on this issue, on this very bill 
that is now being considered by the Congress? I would like to 
put it in for the record, if you happen to have that 
information. This is the first time I have learned of this.
    Mr. Koepsel. We researched and have spoken with local 
offices about what their position was, but for the Department 
of Interior, there have been long negotiations that have gone 
on in this issue before legislation arose. There was talk about 
an exchange being possible, but I think the sale would not have 
been possible.
    Mr. Faleomavaega. Were there any written memos or any 
position papers or evaluations--
    Mr. Koepsel. Discussions we have had with the Lander 
office.
    Mr. Faleomavaega. I am sorry?
    Mr. Koepsel. Discussions we have had with the Lander office 
and employees of that office on how this thing has progressed.
    Mr. Faleomavaega. So there were oral discussions with you--
    Mr. Koepsel. Yes.
    Mr. Faleomavaega. --but nothing in writing as far as that? 
I notice my time is up, Mr. Chairman. I will wait for the 
second round.
    The Chairman. The gentleman from Michigan, Mr. Kildee, is 
recognized for 5 minutes.
    Mr. Kildee. I will defer to Mrs. Cubin.
    The Chairman. The gentlelady from Wyoming is recognized for 
5 minutes.
    Mrs. Cubin. Thank you, Mr. Chairman.
    I want to start by thanking Mr. Larsen for being here 
today. You did an excellent job in testifying in Casper. I 
appreciate that, and I think you are an extraordinarily strong 
advocate for your cause and I really do respect your opinion. I 
want to welcome your son here, too. What is his first name?
    Mr. Larsen. It is Jared, Mrs. Cubin.
    Mrs. Cubin. Well, Jared, I think I know who you are back 
there. Welcome. I just wanted to get your name in the 
Congressional Record.
    [Laughter.]
    Mr. Larsen. He is the cute one.
    [Laughter.]
    Mrs. Cubin. Of course, and the brilliant one, too.
    The Chairman. Ask him where the name came from.
    Mrs. Cubin. Anyway, thank you very much.
    As you know, there has been, particularly in the State's 
only Statewide newspaper, a lot of opposition to the sale of 
Martin's Cove. Some have suggested that the Church will change 
the history of the place so that it becomes more of an LDS site 
rather than a national site. I wanted to ask you if other 
ranchers in the area and other property owners in the area have 
had any input. I mean, for example, in the museum, did those 
come from people that were not LDS as well as people that were 
LDS?
    Mr. Larsen. There are not many Mormons along the 
Sweetwater. The ranchers surrounding the visitors' center have 
been very cordial and have been very willing to donate 
artifacts that are presented in the history of the Sweetwater 
Museum.
    Mrs. Cubin. I want you to know that I sincerely believe 
that no one will care more for that land and protect it better 
than the Church. This is why this is such a difficult position 
for me, but nonetheless, that is why I get paid the big bucks, 
I guess.
    I wanted to ask Bishop Burton, do you know why the talks 
broke down and why we were never able to come to terms on a 
land transfer over the past 5 years?
    Bishop Burton. The land transfer proposition involved a 
survey of about every site along the trails from the eastern to 
the western edge of Wyoming. In that survey, we were only able 
to discover two sites. One was the Sixth Crossing of the 
Sweetwater, which I have already mentioned. We offered acre-
for-acre there, as I have so testified.
    Another property that met the criteria that was stood up by 
the Bureau--
    Mrs. Cubin. Bishop, I think I did not state my question 
correctly. What I want to know is, in terms of Martin's Cove, 
there has been negotiating back and forth between the BLM and 
the Church for about 5 years and yet they were not able to come 
to an agreement on the exchange. Do you know--
    Bishop Burton. That is because a suitable property, 
Representative Cubin, was not identified that met the criteria 
of the Bureau of Land Management for an exchange.
    Mrs. Cubin. I see.
    Bishop Burton. The Bureau of Land Management would not 
entertain a notion for a sale. Hence, the only avenue open to 
us was an exchange and suitable property was not found.
    Mrs. Cubin. Thank you. I want to go back to Mr. Larsen. Mr. 
Koepsel testified that there had been conversations and input 
from the BLM in the Lander office and in the general area who 
were opposed to this sale. Could you tell me if you agree--
would you please comment on that?
    Mr. Larsen. Yes. I think that fits well into the history of 
the exchange that you were asking Bishop Burton. When we 
proposed an exchange at part of the property that we purchased 
at Sixth Crossing, we were told that the property that we 
offered with the easement in perpetuity did not meet the test. 
The problem with that, Representative Cubin, is that we do not 
know what the test is. It appeared to us that the 
administrators at the local office are the ones that determine 
what does and what does not meet the test. There is not a 
written criteria that we are aware of.
    So about a year ago, we met with Mr. Jack Kelly, who is the 
area supervisor for the Lander District of the BLM with the 
intent to find out if there were any other properties that 
were, indeed, available for the exchange that they knew of, and 
we explained to him the same things that Bishop Burton just 
explained to you, that we had searched across the State of 
Wyoming for suitable properties that might interest the BLM 
that had historical significance. He indicated that he felt 
that we had exhausted and had done a fairly well research and 
that they were not aware of any other properties. We then asked 
him if he had any other suggestions. He indicated that he did 
not.
    So at that time, we told him that we felt that because 
there was not any other properties available and because the 
BLM had turned down the offers that had been made, that we 
wanted to pursue a legislative action that would enable us to 
purchase Martin's Cove, and we, indeed, asked him if we could 
get his support in that. He indicated that he not only could 
not support, that he would be opposed to that.
    The reason that we wanted him to know that, Representative 
Cubin, is because we wanted to be very up-front in our dealings 
with the government on this issue. We did not want anybody to 
think that we were making an end-run on this issue. In fact, 
when I went to meet with Senator Craig Thomas's office and your 
office in Casper the next day to inform you of our intent, your 
office already knew because Jack Kelly had already called them 
and contacted them.
    Mrs. Cubin. Thank you very much.
    The Chairman. The gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. I look forward to 
working with you and Mr. Rahall to fashion a bill that will 
meet the public needs and the special historical needs of the 
Church of Latter-day Saints and I think we can be successful in 
that.
    Mr. Hansen and I discuss two things regularly, theology and 
politics. I am Roman Catholic and he is a good Mormon and we 
enjoy both discussions. But I think, looking specifically, the 
Church of Latter-day Saints has a keen interest in history and 
they have been willing to share that interest in history with 
people not of the Church. I am trying to check my ancestry, so 
I will be looking through your records out there.
    But I think if you look specifically at your practice for 
years and your belief for years, a very keen interest in 
history and I think you come to us with that very special 
qualification. So I feel that the Church certainly will want to 
keep that land as it was and share, as you have in the past, 
the other historical background which the Church provides for 
the whole country.
    So I think we can work this out, Mr. Hansen, and I look 
forward to working with you.
    The Chairman. I thank the gentleman from Michigan, who is 
the most knowledgeable man I know on Catholicism and I enjoy 
our discussions on theology. A very fine person, too, I may 
add.
    The gentleman from Arizona, Mr. Flake.
    Mr. Flake. I thank the Chairman for the opportunity to be 
in the Subcommittee today. In the interest of full disclosure, 
I am a member of the LDS Church. I appreciate having Bishop 
Burton here and President Larsen and others.
    I, too, have been impressed with the package that has been 
put together and the care that has been taken by the Church and 
others to make sure that the site is preserved and that access 
is maintained. Do you want to talk about that for a minute, 
Bishop Burton, about the Church's policy of access to the 
properties that it has that have a historical value?
    Bishop Burton. Thank you for the question. As I mentioned 
before, we operate about 20-plus sites around the country and 
around the world and they are all open to the public and we 
invite the public to come and share in the history that they 
represent. So one of our tenets, of course, is to allow that to 
take place and we do that with a religious fervor, that we 
think it is important and we wish to have that as a matter of 
record, that we would invite and accommodate and provide access 
for the public at not only this site, but others around the 
country.
    Mr. Flake. Thank you. The representative from the Sierra 
Club, if I could ask you, the BLM had not developed the 
property prior to the Church's involvement at all. The property 
was not developed or probably would not be developed. Do you 
believe that it would be for the other portions or the other 
historic trails going through, or would that site likely be 
just left fallow?
    Mr. Koepsel. Well, the biggest problem with the Martin's 
Cove site was the lack of access into it. It is a huge problem 
we have all over Wyoming, is getting access to our public 
lands, and it was the Church through their acquisition of the 
Sun Ranch that finally provided a convenient way to access the 
site. There were some ways to access the site, but they were 
very difficult, and it was finally with the Church's 
acquisition that it facilitated access to the site.
    Mr. Flake. Just to follow up, if this sale goes through, do 
you think more Americans would have an opportunity to view this 
site and enjoy and learn about history with this sale or 
without it?
    Mr. Flake. As I mentioned in my testimony, I think that the 
site is well developed right now. The Sun Ranch or some 
buildings there have been converted into a visitors' center 
that the Church runs. You can hike out to Martin's Cove. I do 
not know of any changes. The Church has not mentioned any 
changes that they are interested in the site, so I do not know 
if there would be much difference in the way the site is being 
managed or not.
    It seems like the Bureau of Land Management has been quite 
cooperative in signing the site, allowing interpretive signs, 
so I think the site is well developed right now. People can get 
a very inspirational story of what has happened at that site 
and it seems as if the site is being managed quite well in its 
current state.
    Mr. Flake. I thank all the witnesses and I appreciate, 
again, the opportunity to sit in on the Subcommittee and I am 
pleased to support the legislation.
    The Chairman. Thank you, Mr. Flake.
    The gentleman from American Samoa has further questions. We 
will recognize you for 5 minutes, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I just wanted to go back to Mr. Larsen's response, I think, 
to Congresswoman Cubin's question about the criteria. When the 
proposed transfer to be made, I think your communication with 
Mr. Kelly there at the BLM, did you mention that to this day, 
you still do not know what that criteria is from the BLM?
    Mr. Larsen. We do not.
    Mr. Faleomavaega. How many months and years has this been 
in place? You mean to this day, the BLM regional office there 
at Wyoming still has not explained to you and to the people 
there in Wyoming what that criteria is?
    Mr. Larsen. Their indication, Representative, was that--he 
told us that we did not have to pronounce his name in Wyoming, 
we could just call him John Wayne, so Representative John 
Wayne--
    [Laughter.]
    Mr. Larsen. --Mr. Kelly's, or the BLM's response to us was 
that it did not meet the historic needs that Martin's Cove did 
for the public and what test or what criteria that they used to 
determine that, I do not know. The portion of property that was 
offered was what is called the Seminole Cutoff, which was an 
alternate route around Rocky Ridge. Rather than going over the 
hard inclination of the mountain that passed the Sweetwater 
Canyon, they could bypass and go on the south end of the river 
and it was used quite significantly and we thought it was a 
very good option.
    If I could just touch on one other theme, the question that 
Representative Flake posed on the trail's corridor coming into 
Martin's Cove, the majority of that corridor actually now 
exists on land that was formerly the Sun Ranch and is now 
currently owned by the Church and the public did not have 
access to that corridor until the Church made it possible for 
them through the acquisition of this property. So public access 
to that corridor has been greatly enhanced.
    Mr. Faleomavaega. I am trying to see if I can--it is too 
bad Secretary Fulton is not here, but I just wanted to ask, Mr. 
Larsen, in your best opinion, the LDS Church has made a very 
good faith effort to work or to do some kind of a transaction 
as requested by BLM, whether to transfer the land or exchange 
lands, and how long have these negotiations been going on?
    Mr. Larsen. We actually entertained the idea shortly after 
the purchase of the property in 1997 and I believe that those 
negotiations started to some degree in 1998--1996, thank you.
    It is an interesting point of information that we hired one 
of the past National Cattlemen's Association, who are familiar 
with the owners and ranchers in Wyoming, to actually go across 
the trail in Wyoming and to visit with any of those that he 
thought might have property that would be historically 
significant and to see if any of that property was available, 
and he went from one end of the State to the other to try and 
do that. We feel that we have made a very fair effort in trying 
to identify property that would be historically significant and 
to try and negotiate for acquisitions of that property to 
pursue for trade.
    Mr. Faleomavaega. As I recall from our hearing that was 
held at Casper, one of the criticisms also of the proposed 
legislation is that the Church and BLM had only met once during 
that five- or 6-year period about trying to do some kind of a 
transaction. Is this an accurate description, Mr. Larsen?
    Mr. Larsen. No, it really is not. The correct statement 
would be is that the Church made only one formal offer to the 
BLM for exchange. There were ongoing meetings with the BLM in 
pursuit of a trade. I do not know the exact number of times, 
but I know it was on a number of times that farm management met 
with the BLM in Lander to try and negotiate a trade on that.
    Mr. Faleomavaega. I have a note here from Mr. Koepsel, the 
provision under FLPMA, I believe it is under Section 1713 of 
the FLPMA Act, or Section 203, where it states that a tract of 
the public lands, except lands in units of the national trails, 
the preservation, the wildlife and scenic rivers, may be sold 
under this Act where as a result of land use planning required 
under Section 1712. Does this give you any indication that this 
is in violation of what this proposed legislation is trying to 
do?
    Mr. Koepsel. I do think it is a violation of this 
legislation. Obviously, since it was passed by Congress, 
Congress can override its legislation, its own legislation that 
was passed previously, but Martin's Cove is intricately 
connected with the Mormon Trail, which is one of the four 
national historic trails that goes through that area.
    I think what I was trying to make clear there is that the 
Department of Interior should be following the legislative 
guidance that Congress has given it. In this case, I think it 
is quite clear that, administratively, the Department of 
Interior and its agencies, such as the Bureau of Land 
Management, cannot do this administratively. Obviously, 
Congress can because they passed the original legislation.
    Mr. Faleomavaega. Thank you, and I appreciate Mr. Larsen 
reminding me that my name is John Wayne as we met in Casper.
    [Laughter.]
    Mr. Faleomavaega. Thank you very much, Mr. Chairman.
    The Chairman. He never made a bad movie, either.
    Let me just say, you have all asked questions about the 
Church negotiating with BLM regarding why it was so hard and so 
difficult. Because I guess I am the old dog around here and 
have done many of these, very few people make it. It just does 
not happen. They get involved in this thing. They get 
discouraged. They get turned down. They go from one place to 
the other. They start at their local area, they go to Denver, 
they come back here, and they give up and they just wring their 
hands and say it cannot be done.
    That is really our fault, because we have made it so 
complicated for people to make land exchange, and they have to 
be. I mean, there are just some times you have to make changes, 
for roads, for military, for whatever it may be, and it really 
bothers me it is so difficult.
    So where do they come? They come to Congress. We are doing 
one omnibus bill together now and invite all of you to take 
care of your little problems, wherever they may be. We do an 
omnibus bill where we find an area and we put it in this bill 
and we take care of all 11 Western States.
    When I was a city councilman 42 years ago, the little town 
that I am from is called Farmington, Utah, and the city grew 
around a piece of BLM and a piece of the Forest Service. I 
tried for 12 years as a city councilman to get the Forest 
Service and the BLM to do something and they said, ``Oh, yes, 
we are working on it,'' but nothing ever happened.
    When I went to the State Legislature, I brought it up. When 
I was Speaker of the House, I got in contact with the head of 
BLM. They said, ``Mr. Speaker, we will do something on it.'' 
Nothing happened. So as a Congressman, I put it in the law and 
we got it done.
    I do not blame anybody. The LDS Church, we did one for the 
Wesleyan Church, we did one for the Catholic Church, we have 
done it for other Churches. We are willing to do this if they 
have a meritorious and reasonable thing.
    We have looked at the law also, and in our opinion and in 
the opinion of our attorneys, it is perfectly legal, what we 
are doing, and I think it is a stretch to say otherwise.
    Now, I do not mean to get in a hassle with the gentleman 
from the Sierra Club because I know he is a good man and trying 
his best to do what he thinks is right, but I just got so 
intrigued with your last comment to my good friend, Barbara 
Cubin, who I have worked with diligently, and before her, Craig 
Thomas, and before that, Dick Cheney. I have probably carried 
more pieces of legislation for Wyoming than anybody that has 
ever lived in Wyoming.
    But anyway, be that as it may--
    [Laughter.]
    The Chairman. --where he makes the statement that maybe 
because she is from Wyoming, that I should withdraw, I would 
assume from that criteria that--the Sierra Club guy in Utah is 
named Lawson Legate, and Mr. Lawson Legate has two or three 
people. One is called Maurice Hinchey from New York. Another 
one is Chris Shays from Connecticut, and another one is a 
member of our Committee, Rush Holt from New Jersey.
    Now, if we use that, would you call Mr. Lawson Legate and 
tell those three people to get out? I would like to mention 
five others, one from Nevada, Arizona, and others, and I think 
that would be a wonderful thing for you to do. I would applaud 
you for doing that and I would thank you very much from the 
bottom of my heart for getting those guys out of my State, if 
you would.
    [Laughter.]
    The Chairman. I can see you are not going to respond.
    I am sorry, I did not notice. Mr. Cannon just came in, from 
the Third District of Utah. Mr. Cannon, I recognize you for any 
statement you may make or questions you may ask, and do it 
within a 5-minute period, will you, please.
    Mr. Cannon. Thank you, Mr. Chairman. I apologize for being 
involved in another committee and not being able to get over 
here earlier. I ask unanimous consent to submit a statement for 
the record.
    The Chairman. Without objection, so ordered.
    Mr. Cannon. I just might thank the panel for coming today, 
especially Bishop Burton for being here. While I apologize 
again to you for not being here, I assure you that we will take 
a look at the record and help move this legislation forward.
    Mr. Chairman, with that, I yield back.
    The Chairman. Thank you.
    [The prepared statement of Mr. Cannon follows:]

 Statement of The Honorable Chris Cannon, a Representative in Congress 
                  from the State of Utah, on H.R. 4103

    Thank you, Mr. Chairman, for holding this hearing to discuss the 
future of Martin's Cove. The events that occurred on this spot of land 
tell an amazing story of struggle, faith, and sacrifice. It is a story 
that is important not only for members of the Church of Jesus Christ of 
Latter-day Saints, but for the state of Wyoming and for the nation as a 
whole.
    To be honest, I have been surprised by the intensity of some in 
opposition to this bill. Critics have claimed that conveying public 
land to a religious body would be unwise. Others have said conveying 
National Register Property to a private entity would set a dangerous 
precedent for our public lands. These assertions are false.
    Any careful research would show there are several cases where the 
Federal Government has transferred public lands to private entities for 
religious purposes. I would be happy to show any one the many instances 
in the past where this has occurred. At the same time, even if this was 
unprecedented, should one automatically surmise that transferring land 
to a Church is a bad thing? Is it not reasonable to think that a 
religious organization could care for a significant religious and 
historic site better than the Federal bureaucracy? Frankly, I am 
appalled by the insinuation that a Church or religious organization 
could not and would not be a careful steward of the land. People making 
that claim need to reanalyze history as well as their own biases.
    Similarly, Congress has authorized the transfer, trade, or sale of 
lands of historical significance to private entities on numerous 
occasions. Virtually half the state of Wyoming is owned by the Federal 
Government. This bill would reduce the 31 million acres of public land 
in Wyoming by a little over 1600 acres. To portray this transfer as a 
significant attack on public lands is ridiculous.
    I thank the witnesses for being here today and I look forward to 
hearing their testimony. I would especially like to thank Bishop David 
Burton for his presence and for the work he has done on this issue.
                                 ______
                                 
    The Chairman. Let me thank all of our witnesses. We 
appreciate all of you being here, and one thing beautiful about 
this area, we want you here, we want to hear what you have to 
say, and we look at it very seriously, and we will read your 
statements.
    Mr. Lukei, regarding that other bill, I think that one is 
well on the way. We did not mean to ignore you, but this one 
kind of took center stage.
    With that said, we stand adjourned.
    [Whereupon, at 12:27 p.m., the Subcommittee was adjourned.]


</pre></body></html>
